<html>
<title> - STRENGTHENING NASA'S TECHNOLOGY DEVELOPMENT PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
          STRENGTHENING NASA'S TECHNOLOGY DEVELOPMENT PROGRAMS

=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

                           Serial No. 111-58

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-858                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. MCCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant



                            C O N T E N T S

                            October 22, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    18
    Written Statement............................................    19

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    20
    Written Statement............................................    21

Statement by Representative Charles A. Wilson, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    22
    Written Statement............................................    22

                               Witnesses:

Dr. Robert D. Braun, Co-Chair of the Committee To Review the NASA 
  Institute for Advanced Concepts, Aeronautics and Space 
  Engineering Board, National Research Council
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    33

Dr. Raymond S. Colladay, Vice Chair of the Committee on Rationale 
  and Goals of the U.S. Civil Space Program, Aeronautics and 
  Space Engineering Board, National Research Council
    Oral Statement...............................................    34
    Written Statement............................................    35
    Biography....................................................    36

Mr. Christopher Scolese, Associate Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    37
    Written Statement............................................    38

Discussion
  Program Attributes.............................................    44
  Public Relations/Student Relations.............................    45
  Collapse of NIAC...............................................    46
  Manned Spaceflight.............................................    47
  Non-Mission Budget.............................................    48
  Patents........................................................    51
  Benefit to Taxpayer............................................    51
  Space Elevator.................................................    51
  Finding Water..................................................    52
  Beaming Energy.................................................    52
  Sharing Between Military and Commercial Developers.............    53
  ITAR...........................................................    53
  NASA Organizational Structure..................................    55

              Appendix: Answers to Post-Hearing Questions

Dr. Robert D. Braun, Co-Chair of the Committee To Review the NASA 
  Institute for Advanced Concepts, Aeronautics and Space 
  Engineering Board, National Research Council...................    58

Dr. Raymond S. Colladay, Vice Chair of the Committee on Rationale 
  and Goals of the U.S. Civil Space Program, Aeronautics and 
  Space Engineering Board, National Research Council.............    62



          STRENGTHENING NASA'S TECHNOLOGY DEVELOPMENT PROGRAMS

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

          Strengthening NASA's Technology Development Programs

                            october 22 2009
                              10 a.m.-noon
                   2318 rayburn house office building

I. Purpose and Issues:

    On October 22, 2009 the Subcommittee on Space and Aeronautics will 
hold a hearing on the National Aeronautics and Space Administration's 
(NASA) efforts to define advanced concepts and develop innovative 
technologies. The hearing will examine (1) the opportunities, 
challenges, and issues identified in external reviews associated with 
NASA's analysis of advanced concepts and long-term development of 
technology; (2) NASA's progress in responding to the provisions in NASA 
Authorization Acts and recommendations from external reviews associated 
with technology development; and (3) NASA's efforts to collaborate and 
coordinate with other Federal agencies on technology development 
issues. The hearing will focus on the following questions and issues:

        <bullet>  What are the key findings and recommendations from 
        external critiques of NASA's efforts to conduct advanced 
        concept analysis and long-term technology development? Did they 
        find NASA's existing approach for defining advanced concepts 
        and developing innovative technologies to be effective? What 
        are the budgetary implications of recommended actions?

        <bullet>  What results can an agency expect to achieve by 
        conducting a broadly focused long-term program dedicated to 
        stimulating innovation and developing new concepts and 
        capabilities that are not tied to existing requirements? In the 
        absence of a long-term technology program, how can an agency 
        develop and infuse paradigm-shifting technologies that could 
        create opportunities for future missions?

        <bullet>  If an advanced technology entity is established in 
        NASA, what key lessons can the agency learn from the Defense 
        Advanced Research Projects Agency's (DARPA) historical 
        evolution in roles, structure, culture, and mission? Is a 
        separate entity required or could its objectives be achieved 
        within the current organizational structure?

        <bullet>  Are NASA's flight-system development programs exposed 
        to greater uncertainty and risks when new concepts and 
        technologies are matured within the programs themselves?

        <bullet>  Should time horizons be placed on the development of 
        visionary advanced concepts to ensure that projects are not too 
        far out of alignment with the nearer-term horizons of mission 
        programs? How might these time horizons be determined?

        <bullet>  Has NASA been responsive to the provisions in 
        authorization legislation directing greater commitment to 
        robust technology research and development initiatives in 
        aeronautics, exploration and space and Earth sciences? Has the 
        agency implemented the recommendations from external reviews 
        for conducting advanced technology development in the agency?

        <bullet>  To what extent does NASA coordinate and collaborate 
        with other Federal agencies and departments in planning and 
        conducting long-term aeronautics and space technology 
        development? Have potential overlaps in agency technology 
        research and development activities been identified as a result 
        of such coordination? Has collaboration resulted in greater; 
        synergy among Federal agencies conducting long-term technology 
        development?

II. Scheduled Witnesses:

        <bullet>  Dr. Robert D. Braun Co-Chair of the Committee to 
        Review the NASA Institute for Advanced Concepts Aeronautics and 
        Space Engineering Board National Research Council

        <bullet>  Dr. Raymond S. Colladay Vice Chair of the Committee 
        on the Rationale and Goals of the U.S. Civil Space Program 
        Aeronautics and Space Engineering Board National Research 
        Council

        <bullet>  Mr. Christopher Scolese Associate Administrator 
        National Aeronautics and Space Administration

III. Overview

    Since its creation in 1958, NASA has been one (if the nation's 
leading technology development engines through its investments in 
advanced aeronautics and space research and technology. Concepts and 
advanced technologies such as high-energy cryogenic engines, thermal 
protection for reusable launch vehicles, electric propulsion, solar and 
nuclear energy power systems, automation and robotics, and 
sophisticated sensors enabled landing on the moon, travel to other 
planets, and monitoring of the Earth's environment. These technologies 
have transformed the way we live today as evidenced by the ubiquitous 
presence of and reliance on satellite communications, space-based 
weather observations, and advanced aviation navigation systems. NASA's 
technology development efforts and programs have involved several 
objectives ranging from soliciting visionary advanced techno0gy 
concepts to developing technologies for mission-specific requirements, 
advancing instrument capabilities, and qualifying hardware for space 
flight, among other technology activities to support NASA missions and 
programs.
    The critical importance of technology development was emphasized in 
the Summary Report of the Review of U.S. Human Space Flight Plans 
Committee which was tasked to. review the U.S. plans for human 
spaceflight. The report said:

         ``The Committee strongly believes it is time for NASA to 
        reassume its crucial role of developing new technologies for 
        space. Today, the alternatives available for exploration 
        systems are severely limited because of the lack of a strategic 
        investment in technology development in past decades. NASA ow 
        has an opportunity to develop a technology roadmap that is 
        aligned with an exploration mission that will last for decades. 
        If appropriately funded, a technology development program would 
        re-engage the minds at American universities, in industry and 
        within NASA. The investments should be designed to increase the 
        capabilities and reduce the costs of future exploration. This 
        will benefit human and robotic exploration, the commercial 
        space community, and other U.S. government users.''

    With regards to technology development, the summary of key findings 
included the following observation:

         ``Technology development for exploration and commercial space: 
        Investment in a well-designed and adequately funded space 
        technology program is critical to enable progress in 
        exploration. Exploration strategies can proceed more readily 
        and economically if the requisite technology has been developed 
        in advance. This investment will also benefit robotic 
        exploration, the U.S. commercial space industry and other U.S. 
        government users.''

    The need to invest in technology development was also stressed in a 
recent Space News interview (August 24, 2009) of Norman Augustine, 
Chairman of the Review of U.S. Human Space Flight Plans Committee. 
Responding to the question of whether he sees a need to reform the way 
the U.S. government conducts research and development, he responded:

         ``Developing components of systems during systems development 
        or tests is a very costly way to do that. Far better to develop 
        components and when they've been proven go and develop them and 
        put them into systems. That suggests a need for very strong 
        technology programs, which are particularly vulnerable to 
        budget pressures when they're in the same funding bin as the 
        major programs; so when the major programs gets a cold, the 
        technology program gets pneumonia. We've seen that happen at 
        NASA. So it takes great discipline to continue to invest in 
        technology programs that won't pay off for five, 10, 15 years. 
        But if you don't do it, you end up having component failures 
        that stop you in the midst of system development where the 
        money burn rate is very high.''

    Another important benefit of technology development lies in its 
inspirational value. Visionary advanced technology projects have been 
noted as attracting young talent into NASA and the space program. 
Regarding that point, the National Research Council (NRC) report on 
Fostering Visions for the Future: A Review of the NASA Institute for 
Advanced Concepts stated:

         ``One of NASA's roles is to inspire tie public with a spirit 
        of discovery and exploration, and NASA is at its best when it 
        accomplishes this through significant scientific and technical 
        achievement in aeronautic and space. By fostering the 
        identification and development of innovative advanced concepts, 
        and by its actions to advertise the results of its projects to 
        the public at large, NIAC [NASA Institute for Advanced 
        Concepts] served NASA well in support of this inspirational 
        role. A NIAC-like entity facilitates the introduction of 
        valuable products, intellectual and material, into NASA. It 
        broadens the population that can contribute creative ideas and 
        concepts to NASA, a breadth that has generated significant new 
        ideas. These aspects of the success of the previous NIAC form a 
        compelling set of reasons to reinstate an organization with 
        this charter.''

    Conversely, not having a robust technology development program has 
been shown to contribute to a greater risk of incorporating immature 
technologies into flight-system development programs. As was 
highlighted during the Subcommittee's March 4, 2009 hearing on Cost 
Management Issues in NASA's Acquisitions and Programs, NASA's attempts 
to mature technologies during flight-system development programs have 
resulted in schedule delays and cost 'growth.
    Concerns about technology development in NASA have been raised in 
two recent reports by the NRC. The aforementioned report on the NASA 
Institute for Advanced Concepts (NIAC) found that the termination in 
2007 of the NIAC left the agency without an advanced concepts entity 
focused at looking beyond today's known needs. As a result, it said 
that NASA lost its only innovation-focused capability for seeking out 
fax-reaching, advanced concepts and future capabilities. When NIAC was 
formed in 1998, its purpose was to fund research concepts and products 
deemed to be revolutionary and realizable in no fewer than 10 and no 
more than 40 years. The expectation was that such a program would allow 
technology risks to be mitigated. This in turn would reduce subsequent 
development costs and enable new aid more ambitious research goals to 
be pursued. The NIAC was terminated in Fiscal year 2007, the report 
said, ``as part of a general elimination of a majority of the ESMD 
[Exploration Systems Mission Directorate] elements not directly aligned 
with the near-term objectives of the Vision for Exploration.'' Many of 
the projects funded by NIAC were designed for deeper space exploration, 
or were technologies to be used on Earth, such as an electromagnetic 
system for formation flying.
    In describing the impact of NIAC's termination, the NRC report 
stated:

         ``The termination of NIAC reflects a larger issue within NASA 
        related to the demise of advanced concepts and technology 
        development programs throughout the agency. To effectively 
        infuse advanced concepts into its future systems, NASA needs to 
        become an organization that values and nurtures the creation 
        and maturation of advanced aeronautics and space concepts. 
        Working for NASA, NIAC helped serve this advanced concepts need 
        for almost 10 years and demonstrated its success in creating a 
        community of innovators focused on advanced concepts that may 
        impact future NASA missions.''

    Another NRC report, entitled America's Future In Space: Aligning 
The Civil Space Program With National Needs, recommended that ``NASA 
should revitalize its advanced technology development program by 
establishing a DARPA-like organization within NASA as a priority 
mission area to support preeminent civil, national security (if dual-
use), and commercial space programs.'' The Defense Advanced Research 
Projects Agency (DARPA) is the central ``high-risk, high reward'' 
research and development organization for the Department of Defense. 
Established as a agency of the Department of Defense (DOD) in 1958, 
DARPA funds researchers in industry, universities, government 
laboratories and elsewhere to conduct high-risk, high-reward research 
and development projects that will benefit U.S. national security. The 
agency's research runs the gamut from conducting basic, fundamental 
scientific investigations in a laboratory setting to building full-
scale prototypes of military systems.
    The absence of an adequate long-term technology development 
capability in NASA's science and exploration directorates has been 
noted by the Congress and addressed in legislation. The NASA 
Authorization Act of 2008 [P.L. 110-422] encouraged NASA to emphasize 
long-term technology development. Specific to technology development in 
exploration, the Act directed the NASA Administrator to carry out a 
program of long-term exploration-related technology research and 
development. With regards to missions, the Act directed the 
Administrator toestablish an intra-Directorate long-term technology 
development program for space and Earth science within the Science 
Mission Directorate for the development of new technology.
    Today, technology development is conducted by NASA in four primary 
areas, namely (1) exploration, where the agency develops and matures 
advanced technology, integrates that technology into prototype systems, 
and transitions knowledge and technology (some of which requires use of 
the International Space Station) to the Constellation Program, (2) 
science, where technology development is conducted in conjunction with 
individual mission development activities such as the James Webb Space 
Telescope, (3) aeronautics research, where NASA supports a very broad 
spectrum of research and development (R&D) activity, and (4) the 
Innovative Partnerships Program (IPP) which facilitates both technology 
infusion and technology transfer.
    Thus, although technology development at NASA is being performed or 
sponsored today in several areas, it is not aimed at looking beyond 
today's known needs and is primarily focused on satisfying the needs of 
its mission directorates. As a result, NASA is not , pursuing 
breakthrough technologies that are not explicitly focused on defined 
requirements. At today's hearing, wee will hear from the Co-Chair and 
Vice Chair of the two NRC reviews that were previously referenced. We 
will also hear from NASA's Associate Administrator on what the agency 
is doing in response to direction and recommendations from authorizing 
legislation and external reviews as they pertain to technology 
development.
                         BACKGOUND INFORMATION

IV. Technology Development Activities in NASA

    At the present time, technology development in NASA is being 
conducted primarily in these areas:

         Exploration. The Exploration Systems Mission Directorate's 
        Advanced Capabilities Division (ACD) provides the knowledge, 
        technology, and innovation that will enable current and future 
        exploration missions. ACD is composed of three major programs: 
        the Lunar Precursor Robotic Program (LPRP), Human Research 
        Program (HRP), and the Exploration Technology Development 
        Program (ETDP). Some of that research is performed on the 
        International Space Station. According to NASA, these ACD 
        programs and their projects provide knowledge as a result of 
        ground-based research and technology development, research 
        conducted in space, and observations from robotic flight 
        missions. ACD also develops and matures advanced technology, 
        integrates that technology into pi1ototype systems, and 
        transitions knowledge and technology to the Constellation 
        program. Through its activities, NASA says that ACD provides 
        operational and technical risk mitigation for Constellation 
        Projects.

         Science. Technology development is conducted in the Science 
        Mission Directorate (SMD) in conjunction with individual 
        mission development activities. For example, NASA took 
        additional time and resources to mature several critical 
        technologies needed by the James Webb Space Telescope (JWST). 
        The JWST contains several innovations, including lightweight 
        optics, a deployable sunshield, and a folding segmented mirror.

    Although it is being terminated this fiscal year, SMD has also 
conducted technology development using the New Millennium Program (NMP) 
whose objective is to flight-validate revolutionary spacecraft and 
instrument technologies--a capability that could enhance the science 
return of future missions, while reducing their cost and risk. 
Established in 1995, the purpose of NMP was to identify breakthrough 
spacecraft and instrument technologies, accelerate the infusion of 
revolutionary technologies into NASA science missions by validating 
them in the hazardous environment of space, and provide new and lower 
cost capabilities for Earth and space science missions by reducing the 
risks to the first users. Validation is needed because, as missions 
become progressively more difficult, more advanced capabilities are 
needed, thus opening new, untried technologies to be used for the first 
time on complex exploration missions. The program consisted of a series 
of Deep-Space and Earth Orbiting missions that were technology-driven, 
in contrast to the more traditional science-driven space exploration 
missions of the past. The first NMP Deep Space mission, DS1, was 
launched on October 24, 1998. Since that time, NASA successfully 
validated a solar-powered ion propulsion system, a miniaturized deep 
space transponder, autonomous operations and navigation software, and 
other capabilities. NMP funding was eliminated from the FY2009 budget, 
effectively leading to the program's cancellation.

        <bullet>  Aeronautics Research. In contrast to technology 
        development in exploration and science where the recipient of 
        the work is almost exclusively a NASA program or mission, 
        technology development in aeronautics benefits a wide range of 
        entities. The Aeronautics Research Mission directorate (ARMD) 
        supports a very broad spectrum of R&D activity and not merely 
        along the continuum of basic through applied research, 
        development, prototyping, and testing. As was noted by the 2006 
        NRC report on Aeronautics Innovation: NASA's Challenges and 
        Opportunities, ``ARMD has no institutional responsibility, 
        resources, or capacity to directly implement technologies that 
        the program develops except in unique prototypes or 
        demonstration vehicles. Rather, implementation in public or 
        commercial systems is dependent on a host of other 
        stakeholders.'' The NRC also noted that ``the constraints on 
        NASA's aeronaut1cs program budget have direct and indirect 
        bearings on innovation'', adding further that ``Several 
        participants in the committee's workshops expressed the concern 
        that too many NASA aeronautics projects stopped short of full 
        demonstration of their technical success and utility to users. 
        Experience shows that a potential innovation must be reduced to 
        practice in the complex environment in which it will function 
        before it will be accepted as credible and adopted by the 
        target user community). Such demonstrations in aeronautics 
        often require large expenditures, as has been amply 
        demonstrated by prior NASA and DOD advanced technology 
        demonstrations. The costs of such demonstration programs 
        normally amount to hundreds of millions of dollars. A major 
        part of these demonstration costs is attributable to the 
        systems phenomenon described earlier--unless the technology can 
        be shown to perform as part of the highly integrated system in 
        which it will be used, the prospective user community is likely 
        to discount it.'' In NASA's FY 2010 budget requests, the agency 
        proposes to complement its fundamental aeronautics research 
        with systems level research starting with the Environmentally 
        Responsible Aviation (ERA) project.

        <bullet>  Innovative Partnerships Program. According to NASA, 
        its Innovative Partnerships Program (IPP) provides the 
        organizational structure for acquiring, maturing, infusing and 
        commercial technology and capabilities for the agency's Mission 
        Directorates, programs and projects through vestments and 
        partnerships with industry, academia, government agencies and 
        National Laboratories. As such, IPP facilitates both technology 
        infusion and technology transfer. NASA says that in addition to 
        leveraging technology investments, dual-use technology-related 
        partnerships, and technology solutions for NASA, IPP enables 
        cost avoidance, and accelerates technology maturation. 
        According to NASA, it uses several elements for doing that, 
        namely Technology Infusion (using the Small Business Innovation 
        Research (SBIR) program, the Small Business Technology Transfer 
        (STTR) program, and the IPP Seed Fund), Innovation Incubator 
        (which includes prize competitions such as Centennial 
        Challenges), and Partnership Development. In its Fiscal Year 
        2010 budget submission justification, NASA says that in FY 10, 
        ``NASA's SBIR/STTR programs will continue to provide high-
        priority technology needs for NASA with specific technology 
        needs developed in close coordination with NASA's Mission 
        Directorates and other NASA-wide efforts to determine 
        priorities for future technology requirements.''

    Mr. Christopher Scolese, NASA's Associate Administrator, can 
provide additional details at the hearing on the agency's technology 
development initiatives.

V. Authorizing Legislation

    NASA's past two authorizations included reference to technology 
development.
NASA Authorization Act of 2005
    P.L. 109-155 [Sec. 421] authorized the NASA Administrator to 
establish aeronautics research and development initiatives to develop 
and demonstrate, in a relevant environment, technologies that would 
enable improvements in several commercial aircraft performance 
characteristics, namely noise, energy consumption, and emissions. The 
Act also authorized the Administrator to (1) develop and demonstrate, 
in a relevant environment, airframe and propulsion technologies to 
enable efficient, economical overland flight of supersonic civil 
transport aircraft with no significant impact on the environment; (2) 
establish rotorcraft initiatives that improve safety, noise, and 
environmental impact; (3) conduct hypersonics research with the 
objective of exploring the science and technology of hypersonic flight 
using air-breathing propulsion concepts, through a mix of theoretical 
work, basic and applied research, and development of flight research 
demonstration vehicles; (4) develop revolutionary aeronautical concepts 
with the intent of pushing technology barriers beyond current subsonic 
technology; (5) conduct fuel cell-powered aircraft research; and (6) 
establish a program to conduct Mars aircraft research that would 
develop and test concepts for an uncrewed aircraft that could operate 
for sustained periods in the atmosphere of Mars.

NASA Authorization Act of 2008
    The NASA Authorization Act of 2008 [P.L. 110-422] emphasized long-
team technology development in NASA. Specifically, Sec. 2 of the Act 
stated that ``NASA should make a sustained commitment to a robust long-
term technology development activity. Such investments represent the 
critically important `seed corn' on which NASA's ability to carry out 
challenging and productive missions in the future will depend.''
    Specific to technology development in exploration, the Sec. 405 of 
the Act stated that a ``robust program of long-term exploration related 
technology research and development will be essential for the success 
and sustainability of any enduring initiative of human and robotic 
exploration of the solar system.'' The Act also directed the NASA 
Administrator to ``carry out a program of long-term exploration-related 
technology research and development, including such things as in-space 
propulsion, power systems, life support, and advanced avionics that are 
not tied to specific flight projects. The program shall have the 
funding goal of ensuring that the technology research and development 
can be completed in a timely manner in order to support the safe, 
successful, and sustainable exploration, of the solar system. In 
addition, in order to ensure that the broadest range of innovative 
concepts and technologies are captured, the long-term technology 
program shall have the goal of having a significant portion of its 
funding available for external grants and contracts with universities, 
research institutions, and industry.''
    With regards to technology development in science missions, Sec. 
501 of the Act directed the Administrator to ``establish an in a-
Directorate long-term technology development program for space and 
Earth science within the Science Mission Directorate for the 
development of new technology. The program shall be independent of the 
flight projects under development. NASA shall have a goal of funding 
the intra-Directorate technology development program at a level of 5 
percent of the total Science Mission Directorate annual budget. The 
program shall be structured to include competitively awarded grants and 
contracts.''

VI. NRC Reviews of Technology Development in NASA

    Advanced technology development at NASA has been analyzed in 
several reports and surveys conducted by the National Academies' 
National Research Council.

NRC's Report Fostering Visions for the Future: A Review of the NASA 
        Institute for Advanced Concepts
    Congress directed the NRC to conduct a review of the effectiveness 
of the NASA Institute for Advanced Concepts (NIAC) and to make 
recommendations concerning the importance of such a program to NASA and 
to the nation as a whole, including the proper role of NASA and the 
Federal Government in fostering scientific innovation and creativity 
and in developing advanced concepts for future systems--NASA formed 
NIAC in 1998 to provide an independent source of advanced aeronautical 
and space concepts that could dramatically impact how NASA develops and 
conducts its missions. The institute was terminated in 2007.
    The NRC report, entitled Fostering Visions for the Future: A Review 
of the NASA Institute for Advanced Conceits, was released on August 7, 
2009. The Committee to Review the NASA Institute for Advanced Concepts 
found the NIAC to be effective in developing revolutionary advanced 
concepts and stated:

        ``Until August 2007, NIAC provided an independent open forum, a 
        high-level point of entry to NASA for an external community of 
        innovators, and an external capability for analysis and 
        definition of advanced aeronautics and space concepts to 
        complement the advanced concept activities conducted within 
        NASA. Throughout its 9-year existence, NIAC inspired an 
        atmosphere for inn, ovation that stretched the imagination and 
        encouraged creativity. Utilizing an open, Web-based environment 
        to conduct solicitations, perform peer review, administer grant 
        awards, and publicize its activities, this small program 
        succeeded in fostering a community of external innovators to 
        investigate advanced concepts that might have a significant 
        impact on future NASA missions in a 10 to 40 year time frame. 
        Funded at approximately $4 million per year, NIAC received a 
        total of $36.2 million in NASA funding, more than 75 percent of 
        which was used directly for grants. NIAC received more than 
        1300 proposals and awarded 168 grants, for a total of $27.3 
        million. There were 126 Phase I grants awarded for 6 months of 
        initial study. Upon successful completion of Phase I and based 
        on the continued promise of the advanced concept, 42 Phase II 
        grants were awarded by NIAC for 2 years of additional concept 
        maturation. Many NIAC grantees went on to receive additional 
        funding for continued development of their concept from NASA, 
        other government agencies, or private industry. In addition to 
        developing revolutionary advanced concepts, NIAC increased 
        public interest in science and engineering and provided 
        motivation to the nation's youth to study technical subjects.''

    However, the NRC report said that frequent organizational changes, 
the last of which placed the NIAC in a mission directorate where 
mission objectives were not well aligned, preceded termination of the 
activity:

        ``Originally conceived as reporting to the agency's chief 
        technologist so that infusion across all NASA enterprises could 
        be assured, NIAC operated in an environment of frequent NASA 
        organizational changes. In 2004, NASA management of NIAC was 
        transferred to the Exploration Systems Mission Directorate, 
        where it was not well aligned with its sponsor's near-term 
        mission objectives. NIAC was terminated in 2007.''

    In the course of its review, the committee found:

        <bullet>  ``The NIAC program to be effective in achieving its 
        mission and accomplishing its stated goals. At present, there 
        is no NASA organization responsible for solicitation, 
        evaluation, and maturation of advanced concepts, defined as 
        those at technology readiness level (TRL) 1 or 2, or 
        responsible for subsequent infusion of worthy candidate 
        concepts into NASA planning and development activities. 
        Testimony from several sectors confirmed that NASA and the 
        nation must maintain a mechanism to investigate visionary, far-
        reaching advanced concepts in order to achieve NASA's 
        mission.'' [The measurement of Technology Readiness Levels 
        (TRL) is used by NASA and other agencies to assess the maturity 
        of evolving technologies prior to incorporating that technology 
        into a system or subsystem. For example, at the TRL 3 level, 
        active research and development (R&D) is initiated. This must 
        include both analytical studies to set the technology into an 
        appropriate context and laboratory-based studies to physically 
        validate that the analytical predictions are correct. In 
        contrast, a TRL 7 level requires an actual system prototype 
        demonstration in a space environment, a much higher level of 
        maturity.]

        <bullet>  When it was formed, NIAC was to be ``managed by a 
        high-level agency executive concerned with the objectives and 
        needs of all NASA enterprises and missions. The committee found 
        that NIAC was most successful as a program with cross-cutting 
        applicability to NASA's enterprises and missions. When it was 
        transferred to a mission-specific directorate, NIAC lost its 
        alignment with sponsor objectives and priorities.''

        <bullet>  ``While NIAC's internet-based technical review and 
        management processes were found to be effective and should be 
        continued in NIAC2 [the NRC's characterization of a follow-on 
        effort], the committee found a few policies that may have 
        hastened NIAC's demise. Key among these was (1) the complete 
        focus on revolutionary advanced concepts and (2) the exclusion 
        of NASA personnel from participation in NIAC awards or research 
        teams. NIAC's focus on revolutionary advanced concepts with a 
        time horizon of 10 to 40 years in the future often put its 
        projects too far out of alignment with the nearer-term 1orizons 
        of the NASA mission directorates, thereby diminishing the 
        potential for infusion into NASA mission plans.''

        <bullet>  ``NIAC was formed to provide an independent, open 
        forum for the external analysis and definition of space and 
        aeronautics advanced concepts to complement the advanced 
        concepts activities conducted within NASA; hence, NIAC 
        solicitations were closed to NASA participants. NIAC was formed 
        at a time when there was adequate funding for development of 
        novel, long-term ideas internal to NASA. As internal funding 
        for advanced concepts and technology diminished or became more 
        focused on flight-system development am( operations, the 
        cultural disconnect between the development activities internal 
        and external to the agency grew, and transitioning of NIAC 
        concepts to the NASA miss-on directorates became more 
        difficult.''

        <bullet>  ``That 14 NIAC Phase I and Phase II projects, which 
        were awarded $7 million by NIAC, received an additional $23.8 
        million in funding from a wide range of organizations, 
        demonstrating the significance of the nation's investment in 
        NIAC's advanced concepts. NIAC matured 12 of the 42 Phase II 
        advanced concepts (29 percent), as measured by receipt of post-
        NIAC funding; 9 of them (21 percent) received post-NIAC funding 
        from NASA itself. The committee also found that three NIAC 
        Phase II efforts (7 percent of the Phase II awards) appear to 
        have impacted NASA's long-term plans, and two of these efforts 
        have either already been incorporated or are currently under 
        consideration by the NRC Astronomy and Astrophysics Decadal 
        Survey as future NASA missions. In addition, the committee 
        received much testimony that the potential for receipt of a 
        NIAC Phase III award is needed to aid the transition of the 
        most highly promising projects.''

        <bullet>  ``A persistent NIAC challenge was the lack of a NASA 
        interface to receive the hand-off of promising project. ``

    The committee recommended that:

        <bullet>  ``NASA should reestablish a NIAC-like entity, 
        referred to in this report as NIAC2, to seek out visionary, 
        far-reaching, advanced concepts with the potential of 
        significant benefit to accomplishing relevant to NASA's charter 
        and to begin the process of maturing these advanced concepts 
        for infusion into NASA's missions.''

        <bullet>  ``NIAC2 should report to the Office of the 
        Administrator, be outside mission directorates, and be 
        chartered to address NASA-wide mission and technology needs. To 
        increase NIAC2's relevance, NASA mission directorates should 
        contribute thematic areas for consideration The committee also 
        recommends that a NIAC2 organization should be funded and 
        administered separately from NASA development programs, mission 
        directorates, and institutional constraints. Future NIAC2 
        proposal opportunities should continue to be managed and peer-
        reviewed outside the agency.''

        <bullet>  ``NIAC2 should expand its scope to include concepts 
        that are scientifically and/or technically innovative and have 
        the potential to provide major benefit to a future NASA mission 
        in 10 years and beyond.''

        <bullet>  ``Future NIAC2 proposal opportunities be open to 
        principal investigators or teams both internal and external to 
        NASA.''

        <bullet>  ``Future NIAC2 proposal opportunities include the 
        potential selection of a small number of Phase III ``proof of 
        concept'' awards for up to $5 million each for 4 years to 
        demonstrate and resolve fundamental feasibility issues and that 
        such awards be selected jointly by NIAC2 and NSA management.''
        <bullet>  ``NASA consider reestablishing an aeronautics and 
        space systems technology development enterprise. Its purpose 
        would be to provide maturation opportunities and agency 
        expertise for visionary, far-reaching concepts and 
        technologies.''
        <bullet>  ``Identification of center technical champions and 
        provision for the technical participation of NASA field center 
        personnel in NIAC2 efforts. Participation of NASA personnel can 
        be expected to increase as NIAC2 projects mature.''

    In its concluding remarks, the committee's report stated:

        <bullet>  ``The termination of NIAC reflects a larger issue 
        within NASA related to the demise of advanced concepts and 
        technology development programs throughout the agency. To 
        effectively infuse advanced concepts into its future systems, 
        NASA needs to become an organization that values and nurtures 
        the creation and maturation of advanced aeronautics and space 
        concepts. Working for NASA, NIAC helped serve this advanced 
        concepts need for almost 10 years and demonstrated its success 
        in creating a community of innovators focused on advanced 
        concepts that may impact future NASA missions. NIAC2 can look 
        out for advanced concepts beyond the current development 
        programs. It can work on the edges where requirements are not 
        yet known, focused on what program managers would want if they 
        knew that they needed it. However, this independent 
        organization that nurtures technology push must also be 
        balanced by a meaningful program of technology pull from the 
        mission directorates, running in parallel and focused on 
        nearer-term phased activities. Towards this objective, the 
        committee recommends that NASA consider reestablishing an 
        aeronautics and space systems technology development 
        enterprise. Its purpose would be to provide maturation 
        opportunities and agency expertise for visionary, far-reaching 
        concepts and technologies. NASA's considerations should include 
        implications for the agency's strategic plan, organizations, 
        resource distributions, field center foci, and mission 
        selection process. The technology development approaches used 
        by other Federal agencies can serve as a benchmark in this 
        examination.''

    Dr. Robert D. Braun, Co-Chair of the Committee to Review the NASA 
Institute for Advanced Concepts which produced this report, will be a 
witness at the hearing and can provide additional details on the 
committee's review.

NRC's Report America's Future in Space: Aligning the Civil Space 
        Program with National Needs
    The NRC recently released a report recommending a series of 
measures to better align the civil space program with national needs. 
The report, prepared under the oversight of both the NRC's Space 
Studies Board and Aeronautics and Space Engineering Board, is entitled 
America's Future In Space: Aligning The Civil Space Program With 
National Needs. To contribute to realizing national objectives such as 
``Providing clean and affordable energy'' and ``Protecting the 
environment now and for future generations'', the Committee on the 
Rationale and Goals of the U.S. Civil Space Program identified four 
foundational elements it viewed as ``critical to a purposeful, 
effective, strategic U.S. space program, without which U.S. space 
efforts will lack robustness, realism, sustainability, and 
affordability.'' These are:

        1.  ``Coordinated national strategie--implementing national 
        space policy coherently across all civilian agencies in support 
        of national needs and priorities and aligning attention to 
        shared interests of civil and national security space 
        activities.

        2.  A competent technical workforce--sufficient in size, 
        talent, and experience to address difficult and pressing 
        challenges.

        3.  An effectively sized and structured infrastructure--
        realizing synergy from the public and private sectors and from 
        international partnerships.

        4.  A priority investment in technology and innovation--
        strengthening and sustaining the U.S. capacity to meet national 
        needs through transformational advances.''

    The foundational element citing investment in technology and 
innovation led to a committee recommendation on advanced space 
technology. The report recommended that ``NASA should revitalize its 
advanced technology development program by establishing a DARPA-like 
organization within NASA as a priority mission area to support 
preeminent civil, national security (if dual-use), and commercial space 
programs.''
    The Defense Advanced Research Projects Agency is the central 
``high-risk, high-reward'' research and development organization for 
the Department of Defense. Established as a DOD agency in 1958, DARPA 
fund researchers in industry, universities, government laboratories and 
elsewhere to conduct high-risk, high-reward research and development 
projects that will benefit U.S. national security. The agency's 
research runs the gamut from conducting basic, fundamental scientific 
investigations in a laboratory setting to building full-scale 
prototypes of military systems.
    At the Space and Aeronautics Subcommittee's hearing on External 
Perspectives on the FY 2010 NASA Budget Request and Related Issues held 
on June 18, 2009, Dr. Raymond Colladay, Vice Chair of the committee 
that authored the report, advocated for a focused, risk reduction 
technology program in NASA. In his prepared statement, he stated:

         ``Aeronautics is underfunded, but a broad based, innovative 
        advanced space technology development program that is 
        organizationally independent of ongoing hardware development 
        programs is nonexistent. The downward trend started soon after 
        aeronautics and space technology, once logically managed 
        together, were split apart. A decision soon followed to focus 
        technology specifically on major development program needs by 
        moving the resources to mission areas it intended to serve. 
        Predictably, once all technology development was placed with 
        the major development efforts it became near-term oriented as a 
        risk reduction effort back-stopping hardware development. The 
        Aeronautics and Space Engineering Board sponsored study on the 
        Exploration Technology Development Program for Constellation 
        done last year expressed concern on just that point of the need 
        for more emphasis on longer-term research. With budget and 
        schedule pressures as demanding as ever, the situation has not 
        improved. Clearly, there is a need for focused, risk-reduction 
        technology that is defined by explicit mission requirements and 
        funded by the mission office, but it does not fill the need for 
        the agency on a broader level to pursue long-term technology 
        ``push'' well out in front of requirements and broad in scope 
        supporting civil (not just NASA) and commercial space. An 
        agency that has inspired us with bold missions and spectacular 
        accomplishments needs to be investing in technology that 
        continually seeks to transform state-of-the-art capabilities 
        and enable future missions that some day we may want to do, if 
        we only knew how.''

    In his prepared statement, Dr. Colladay called on NASA to 
revitalize its advanced space technology development program:

         ``NASA should revitalize advanced space technology development 
        as a priority mission area of the agency. It should engage the 
        best science and engineering talent in the country wherever it 
        resides in universities, industry, NASA centers or other 
        government labs focused on world-class research and innovation 
        and not driven by the need to maintain ten healthy centers. It 
        should support not only future NASA missions, but other 
        government agencies and commercial space. The ``customers `` 
        for its technology products would be industry, NASA itself; 
        other government agencies like NOAA, and military space where 
        dual-use technology is applicable. Having this broad mandate 
        would make it similar in the breadth of customers served to the 
        NASA role in aeronautics with its heritage in NACA going back 
        almost a century.

         The responsibility to provide for this advanced technology 
        base for civil space activities rests with NASA, in partnership 
        with universities, other government agencies, and industry. The 
        ``customers `` for the products of technology are NASA, NOAA, 
        industry, and military space programs in which multiple-use 
        technology is applicable. Because of budget pressures and 
        institutional priorities, however, NASA has largely abandoned 
        its role in supporting the broad portfolio of civil space 
        applications, and the space technology base has thus been 
        allowed to erode and is now deficient. The former NASA advanced 
        technology development program no longer exists. Most of what 
        remained was moved to the Constellation Program and has become 
        oriented specifically to risk reduction supporting the ongoing 
        internal development program.

         To fulfill NASA's broader mandate, an independent advanced 
        technology development effort is required, much like that 
        accomplished by DARPA in the DOD, focused not so much on 
        technology that today's program managers require, but on what 
        future program managers would wish they could have if they knew 
        they needed it, or would want if they knew they could have it. 
        This effort should engage the best science and engineering 
        talent in the country wherever it resides--in universities, 
        industry, NASA centers, or other government laboratories--
        independent of pressures to sustain competency at the NASA 
        centers. A DARPA-like organization established within NASA 
        should report to NASA's Administrator, be independent of 
        ongoing NASA development programs, and focus on supporting the 
        broad civil space portfolio through the competitive funding of 
        world-class technology and innovation projects at universities, 
        federally funded research and development centers, government 
        research laboratories, and NASA centers.''

    Dr. Colladay will be a witness at today's hearing and can provide 
additional details on the committee's review. Furthermore, as a former 
head of DARPA, he can provide insight into that agency's past 
activities.

NRC's Report A Constrained Space Exploration Technology Program

    In January 2004, President George W. Bush announced the nation's 
new space policy by issuing the Vision for Space Exploration (VSE), 
which instructed NASA to ``extend human presence across the solar 
system, starting with a human return to the Moon by the year 2020, in 
preparation for human exploration of Mars and other destinations.'' 
NASA was also directed to ``develop the innovative technologies, 
knowledge, and infrastructures both to explore and to support decisions 
about the destinations for human exploration,'' among other objectives. 
In response to the direction regarding the development of innovative 
technologies, NASA focused its resources on maturing the technologies 
necessary for exploration. NASA's Exploration Technology Development 
Program (ETDP) was implemented to support, develop, and ultimately 
provide the necessary technologies for the agency's Constellation 
flight program.

    The NRC's Committee to Review NASA's Exploration Technology 
Development Program was asked to perform an independent assessment of 
NASA's Exploration Technology Development Program (ETDP) and to offer 
findings and recommendations related to ``the relevance of ETDP 
research to the objectives of the Vision for Space Exploration, to any 
gaps in the ETDP research portfolio, and to the quality of ETDP 
research.''
    In its report entitled A Constrained Space Exploration Technology 
Program: A Review of NASA's Exploration Technology Development Program 
released in 2008, the committee stated it found the ETDP to be making 
progress toward the stated goals of technology development. However, 
the committee also found the technology development program to be 
``operating within significant constraints that limit its ability to 
successfully accomplish those goals. The constraints include the still-
dynamic nature of the Constellation Program requirements, the 
constraints imposed by a limited budget, the aggressive time-scale of 
early technology deliverables, and the desire within NASA to fully 
employ the NASA workforce.''

    The report noted the limitations in scope of the technology 
development program:

         ``Because of the constraints cited above, the ETDP as created 
        by NASA is a supporting technology program very closely coupled 
        to the near-term needs of the Constellation Program. The ETDP 
        is focused on only incremental gains in capability, and it has 
        two programmatic gaps (integration of the human system, and 
        nuclear thermal propulsion). NASA has in effect suspended 
        research in a number of technology areas traditionally within 
        the agency's scope and has in many areas essentially ended 
        support for longer-term technology research traditionally 
        carried out within NASA and with strong university 
        collaboration. These actions could have important consequences 
        for aspects of the VSE beyond the initial, short-duration lunar 
        missions-including an extended human presence on the Moon and 
        human exploration of Mars and beyond.''

    The findings in the report associated with advanced technology 
development included the following:

        <bullet>  ``The range of technologies covered in the 22 ETDP 
        projects will, in principle, enable many of the early endeavors 
        currently imagined in NASA's Exploration Systems Architecture 
        Study architecture, but not the entire VSE. In examining the 
        projects and the scope of the ETDP, the committee found two 
        significant technology gaps and also identified several 
        crosscutting issues that are characteristic of many of the 22 
        ETDP projects or of the overall management of the ETDP. A 
        fundamental concern that reflects all of these issues is that 
        the ETDP is currently focused on the short-term challenges of 
        the VSE and is addressing the near-term technologies needed to 
        meet these challenges. Although it is clear that much of this 
        focus results from the constraints on the program, the 
        committee is concerned that the short-term approach 
        characteristic of the current ETDP will have long-term 
        consequences and result in compromised long-term decisions. 
        Extensibility to longer lunar missions and to human exploration 
        of Mars is at risk in the current research portfolio.''

        <bullet>  ``The ETDP has become NASA's principal space 
        technology program. It is highly focused and is structured as a 
        supporting technology program to the Constellation Program, 
        designed to advance technologies at TRL 3 and above toward TRL 
        6.

        <bullet>  Because of this shift toward the relatively mature 
        end of the technology investment spectrum, which is very 
        closely coupled to the near-term needs of the Constellation 
        Program, NASA has also in effect suspended research in a number 
        of technology areas traditionally within the agency's scope, 
        and it has in many areas essentially ended support for longer-
        term (TRL 1-2) technology research. ``

        <bullet>  ``Although the ETDP has a well-conceived process for 
        managing the programmatic risk of its own technology 
        development, the committee found a lack of clarity in the way 
        that the ETDP accounts for the contributions of its technology 
        developments to reducing exploration (i.e., Constellation) 
        program risk to reducing operational and human health risks, 
        and to considering human-design-factor issues in operations.''

        <bullet>  ``While the ETDP has a good administrative process 
        for determining the formal mechanics of technology transfer, it 
        could improve the effectiveness of the human side of the 
        process by reviewing and adopting effective practice in this 
        area, with the objective of developing a methodology of 
        technology transfer from the development project to the flight 
        project that ensures the successful infusion of the 
        technology.''

        <bullet>  ``The ETDP is currently focused on technologies at or 
        above TRL 3, a focus driven by the need to bring together all 
        of the available resources of NASA to reduce nearer-term 
        Constellation mission risk and at the same time reduce 
        potential Constellation Program schedule slippages within the 
        assigned budget profile.''

        <bullet>  ``Most ETDP projects represent incremental gains in 
        capability, which is not inconsistent with the focus on 
        projects at TRL 3 and above. NASA has largely ended investments 
        in longer-term space technologies that will enable later phases 
        of the VSE, allow technology to ``support decisions about ... 
        destinations,'' in the words of the VSE, and in general 
        preserve the technology leadership of the United States. In 
        assessing the balance between near-term and far-term technology 
        investments, the committee found that the current balance of 
        the ETDP is too heavily weighted toward near-term 
        investments.''

    The committee recommended that:

        <bullet>  ``Managers in the Exploration Systems Mission 
        Directorate and Exploration Technology Development Program 
        should review and carefully consider the committee's ratings of 
        the individual ETDP projects and should develop and implement a 
        plan to improve each project to a level that would be rated by 
        a subsequent review as demonstrating ``appropriate capabilities 
        and quality, accomplishment, and plan.''

        <bullet>  Exploration Technology Development Program (ETDP) 
        project managers should clearly identify the interrelationships 
        between human health and human factor risks and requirements on 
        the one hand and technology development on the other and should 
        ensure that those risks and requirements are addressed in their 
        project plans. Each ETDP project manager should be able to show 
        clearly where that project fits within the integrated 
        Exploration Systems Mission Directorate Advanced Capabilities 
        Program (which includes the ETDP, the Lunar Precursor Robotic 
        Program, and the Human Research Program), and this integrated 
        program plan should include all elements necessary to achieve 
        the Vision for Space Exploration.

        <bullet>  Exploration Technology Development Program (ETDP) 
        project managers should systematically include representatives 
        of the Human Research Program on the ETDP technology 
        development teams.

        <bullet>  The Exploration Technology Development Program should 
        initiate a technology project to evaluate experimentally 
        candidate nuclear thermal rocket (NTR) fuels for materials and 
        thermal characteristics. Using these data, the Exploration 
        Systems Mission Directorate should assess the potential benefit 
        of using an NTR for lunar missions and should continue to 
        assess the impact on Mars missions.

        <bullet>  The Exploration Systems Mission Directorate (EMSD) 
        should review its process for the management of technology 
        development to ensure the timely delivery of technologies for 
        seamless integration into its flight programs. In particular, 
        the ESMD should (1) review and incorporate the considerable 
        expertise in the management and transfer of technology in the 
        larger aerospace, government, and industrial communities; (2) 
        strengthen its management approach by, for instance, appointing 
        a program-level system engineer to ensure that requirements are 
        developed, maintained, and validated in a consistent and 
        complete manner across the entire program; and (3) address the 
        following three issues in particular: (a) the need for a 
        careful assessment of the impact of its technologies on human 
        and operational risk, (b) the need for definition and 
        management of technology requirements, and (c) the importance 
        of recognizing the human elements in the eventual effective 
        transfer and infusion of technology.

        <bullet>  The Exploration Systems Mission Directorate should 
        identify longer-term technology needs for the wider Vision for 
        Space Exploration (VSE) that cannot be met by the existing 
        projects in the Exploration Technology Development Program 
        (ETDP) portfolio, which are currently at technology readiness 
        level (TRL) 3 or above. To meet longer-term technology needs, 
        the committee recommends that the ETDP seed lower-TRL concepts 
        that target sustainability and extensibility to long-term lunar 
        and Mars missions, thus opening the TRL pipeline, re-engaging 
        the academic community, and beginning to incorporate the 
        innovation in technology development that will be necessary to 
        complete the VSE.

        <bullet>  The Exploration Technology Development Program should 
        institute external advisory teams for each project that (I) 
        undertake a serious examination of potential external 
        collaborations and identify those that could enhance project 
        efficiency, (2) conduct peer review of existing internal 
        activities, and (3) participate in a number of significant 
        design reviews for the project.

        <bullet>  The Exploration Systems Mission Directorate should 
        implement cooperative research programs that support the 
        Exploration Technology Development Program (ETDP) mission with 
        qualified university, industry, or national laboratory 
        researchers, particularly in low-technology-readiness-level 
        projects. These programs should both support the ETDP mission 
        and develop a pipeline of qualified and inspired future NASA 
        personnel to ensure the long-term sustainability of U.S. 
        leadership in space exploration.

        <bullet>  The Exploration Systems Mission Directorate should 
        evaluate its test capabilities and develop a comprehensive 
        overall integrated test and validation plan for all Exploration 
        Technology Development Program (ETDP) projects. All ETDP 
        projects should be reviewed for the absence of key tests 
        (ground and/or flight), especially those that are required to 
        advance key technologies to technology readiness level (TRL) 6. 
        Where new facilities or flight tests are required, conceptual 
        designs for the facilities or flight tests should be developed 
        in order to establish plans and resource requirements needed to 
        include the necessary testing in all ETDP projects.''

NRC's Report NASA's Beyond Einstein Program: An Architecture for 
        Implementation
    NRC released a report in September 2007 entitled ``NASA's Beyond 
Einstein Program: An Architecture for Implementation.'' Prompted by 
Congress and the Office of Science and Technology Policy, NASA and the 
Department of Energy asked the committee to assess the five proposed 
mission concepts for achieving the goals of the Beyond Einstein space-
based physics research initiative, and recommend one for first 
development and launch.
    As part of its charge, the committee was tasked with determining 
the realism of preliminary technology and management plans, and cost 
estimates of the candidate Beyond Einstein mission set. Five mission 
areas--Joint Dark Energy Mission, Black Hole Finder Probe, Inflation 
Probe, and Einstein Great Observatories--comprised 11 mission 
candidates. Criteria used by the committee included plans for the 
maturing of critical mission technology, technical performance margins, 
schedule margins, risk-mitigation plans, and the proposal's estimated 
costs versus independent probable cost estimates prepared by the 
committee.
    The committee worked with an experienced outside contractor to 
develop independent cost estimates and a probable cost range for each 
candidate mission. The probable cost ranges were also compared with 
those of previous missions of similar scope and complexity. In all 
cases, the committee found higher costs and longer schedules than those 
estimated by the mission teams. The committee observed that this is 
typical of the differences between the estimates developed by mission 
teams and by independent cost estimators at this early stage of a 
program. Given the long history of missions comparable to the Beyond 
Einstein mission candidates, the committee said that it believed that 
the most realistic cost range for each of these missions is 
significantly more than the current estimates provided by the research 
teams.
    In discussing its assessment of mission readiness, the committee 
stressed the importance of technology readiness as a key consideration 
in the decision to proceed to mission development. The committee said 
that ideally, mission development should not commence until all new 
technologies necessary for mission success have reached a certain level 
of technology readiness. Experience has shown, the committee added, 
``that NASA and other missions pay the price when a mission enters 
development prematurely.''

NRC's Decadal Surveys of Science Missions
    The four completed decadal surveys established by the NRC to 
recommend ground and space-based programs in Science missions for the 
next decade--in the areas of astronomy and astrophysics, solar and 
space physics research, solar system exploration, and Earth science 
research and applications--strongly endorsed the need for technology 
development to enable future missions.

Astronomy and Astrophysics in the New Millennium
    With regard to the importance of investing in technology, this 
decadal survey, completed in 2001, stated that:

         ``Technological innovation has often enabled astronomical 
        discovery. Most of the major discoveries listed at the 
        beginning of this chapter were possible only because of the 
        remarkable advances in technology in the past two decades. 
        Continued investment in technology in this decade is required 
        for many of the initiatives recommended in this report.''

         ``It is essential to maintain funding for the planned 
        technology development if NASA is to keep these missions on 
        schedule and within budget. Targeted technology programs 
        involving a joint effort between engineers and scientists will 
        be essential to success in these projects. As noted above, the 
        committee endorses NASA's policy of completing the 
        technological development of a mission prior to starting it.''

        ``Longer-range investments in technology in this decade are 
        needed to enable the major projects in the next decade-and to 
        make them more cost-effective.''

The Sun to the Earth--and Beyond: A Decadal Research Strategy in Solar 
        and Space Physics

    Completed in 2003, this decadal survey recommended that NASA:

        <bullet>  ``Assign high priority to the development of advanced 
        propulsion and power technologies required for the exploration 
        of the outer planets, the inner and outer heliosphere, and the 
        local interstellar medium. Such technologies include solar 
        sails, space nuclear power systems, and high-efficiency solar 
        arrays. Equally high priority should be given to the 
        development of lower-cost launch vehicles for Explorer-class 
        missions and to the reopening of the radioisotope 
        thermoelectric generator (RTG) production line.''

        <bullet>  ``Continue to give high priority to the development 
        and testing of advanced spacecraft technologies through such 
        programs as the New Millennium Program and its advanced 
        technology program.''

        <bullet>  ``Continue to assign high priority, through its 
        recently established new instrument development programs, to 
        supporting the development of advanced instrumentation for 
        solar and space physics missions and programs.''

        <bullet>  ``Accelerate the development of command-and-control 
        and data acquisition technologies for constellation missions.''

New Frontiers in the Solar System: An Integrated Exploration Strategy
    With regards to technology development, this decadal survey, 
completed in 2003, recommended that NASA:

        <bullet>  ``Commit to significant new investments in advanced 
        technology so that future high-priority flight missions can 
        succeed Unfortunately, erosion has occurred in the level of 
        investment in technology in the past several years. Flight-
        development costs have increased over projections, and 
        investments in advanced technologies have been redirected to 
        maintain flight-mission development schedules and performance. 
        For most of the history of planetary exploration, large-cost 
        flight missions such as Voyager, Viking, Galileo, and Cassini 
        have carried a large portion of the technology-development 
        burden in their development costs. During the change in the 
        last decade to a larger number of lower-cost flight missions, 
        the consequent loss of technology development by large missions 
        was compensated by adding separate technology-development cost 
        lines to the planetary exploration portfolio, such as X2000 
        [NASA's X2000 Program was created in 1997 to infuse new 
        technologies that would enable new, lower-cost and higher-
        performance spacecraft], under an understood policy of ``no 
        mission start before its technological time.'' This mechanism 
        was intended to separate and remove the uncertainties in 
        technological development from early flight-development costs. 
        However, flight-mission costs have been underestimated, and 
        development plans have been too success-oriented, resulting in 
        erosion of technology-development lines by transfer to flight-
        development costs. This trend needs to be reversed in order to 
        realize the flight missions recommended in this report.''

Earth Science and Applications from Space: National Imperatives for the 
        Next Decade and Beyond

    Relative to technology development, this decadal survey, completed 
in 2007, recommended that:

        ``U.S. civil space agencies should aggressively pursue 
        technology development that supports the missions recommended'' 
        in the survey; ``plan for transitions to continue demonstrably 
        useful research observations on a sustained, or operational, 
        basis; and foster innovative space-based concepts. In 
        particular:

                <bullet>  NASA should increase investment in both 
                mission focused and cross-cutting technology 
                development to decrease technical risk in the 
                recommended missions andpromote cost reduction across 
                multiple missions. Early technology focused investments 
                through extended mission Phase A studies are essential.

                <bullet>  To restore more frequent launch opportunities 
                and to facilitate the demonstration of innovative ideas 
                and higher-risk technologies, NASA should create a new 
                Venture class of low-cost research and application 
                missions (^100 million to $200 million). These missions 
                should focus on fostering revolutionary innovation and 
                on training future leaders of space-based Earth science 
                and applications.

                <bullet>  NOAA [National Oceanic and Atmospheric 
                Administration] should increase investment in 
                identifying and facilitating the transition of 
                demonstrably useful research observations to 
                operational use.

        The Venture class of missions, in particular, would replace and 
        be very different from the current ESSP mission line, which is 
        increasingly a competitive means for implementing NASA's 
        strategic missions. Priority would be given to cost-effective, 
        innovative missions rather than those with excessive scientific 
        and technological requirements. The Venture class could include 
        stand-alone missions that use simple, small instruments, 
        spacecraft, and launch vehicles; more complex instruments of 
        opportunity flown on partner spacecraft and launch vehicles; or 
        complex sets of instruments flown on suitable suborbital 
        platforms to address focused sets of scientific questions. 
        These missions could focus on establishing new research avenues 
        or on demonstrating key application-oriented measurements. Key 
        to the success of such a program will be maintaining a steady 
        stream of opportunities for community participation in the 
        development of innovative ideas, which requires that strict 
        schedule and cost guidelines be enforced for the program 
        participants.''

NRC's Decadal Survey of Civil Aeronautics
    The idea of conducting a decadal survey of aeronautics originated 
in discussions among NRC's Aeronautics and Space Engineering Board, the 
Office of Management and Budget, and congressional committees with an 
interest in civil aviation. As a result, the Congress and NASA 
requested NRC to undertake a decadal survey of civil aeronautics 
research and technology (R&T) priorities that would help NASA fulfill 
its responsibility to preserve U.S. leadership in aeronautics 
technology. Issued in 2006, the resultant report presented a set of 
strategic objectives for the next decade of R&T and provided a set of 
high-priority R&T challenges--characterized by five common themes--for 
both NASA and non-NASA researchers, and an analysis of key barriers 
that must be overcome to reach the strategic objectives.
    The report encouraged NASA to closely coordinate and cooperate with 
other public and private organizations to take advantage of advances in 
cross-cutting technology funded by Federal agencies and private 
industry and to develop each new technology to a level of readiness 
that is appropriate for that technology, given that industry's interest 
in continuing the development of new technologies varies depending on 
urgency and expected payoff.
    Chairwoman Giffords. The hearing will now come to order. 
Good morning, everyone. I would like to welcome all of our 
witnesses here today. We look forward to your testimony and are 
so pleased that you are here with us.
    Today is a very busy day on the Hill, and I am going to try 
to be brief in my opening so that we will have as much time as 
possible for discussion. However, I think it is important to 
note right at the outset that based on all of our witnesses' 
testimony there is an agreement on the importance of a vital 
and robust technology development program at NASA and a need to 
revitalize NASA's existing technology development activities.
    And I think it is fair to say that all three would likely 
agree that NASA has been under-investing in technology 
development in recent years. Given that two of our witnesses 
represent distinguished committees of the National Academies 
and the third is one of the most senior officials at NASA, I 
think those views warrant our close attention.
    Yet to some extent our witnesses are preaching to the choir 
today. This subcommittee has been concerned for some time about 
the state of NASA's long-term technology programs, and we 
highlighted the need for action in last year's NASA's 
Reauthorization Act. To quote finding number ten from that act, 
``NASA should make a sustained commitment to a robust, long-
term technology development activity.'' Such investments 
represent critically important seed corn on which NASA's 
ability to carry out challenging and productive missions in the 
future will depend.
    I would also note that the summary report of the Augustine 
Panel that has been reviewing NASA's human spaceflight plans 
also acknowledged the importance of technology development. And 
I quote from them. ``The committee strongly believes it is time 
for NASA to reassume its critical role for developing new 
technologies for space.''
    That is a sentiment on the Augustine Panel which I believe 
that we all heartedly concur. NASA's technology development 
activities are critical not just to NASA's future but to the 
quality of life for all of our citizens and for our Nation's 
competitiveness.
    Discussions of technology development can wind up sounding 
pretty wonky, so let me be clear why I think NASA's efforts are 
so important and need to be supported. This is a photograph. 
Actually, we were having a recent discussion about this 
photograph. I know that it is available on the NASA website. It 
is a picture of a standard commercial airplane that I believe 
really makes a strong point. As you look at it you will see 
some of the most major systems and technologies from research 
undertaken or funded by NASA. It is an aircraft that many 
members of Congress, actually the majority of us, fly every 
single week to come here to work, and yet I bet very few of 
them or even members of the public at large recognize that NASA 
R&D has made this airplane and others possible.
    This picture is just one illustration of the impact of 
NASA's research on our society and our economy. I have no doubt 
that each of NASA's other enterprises could produce similar 
examples, and I hope that they will because it is a story that 
needs to be told time and time again. So I don't think any of 
the members here today need to be convinced that NASA should 
pursue a vigorous program of technology development. Rather, we 
want to explore what it will take to get such a revitalized 
program in place at the agency.
    And in that regard I want to state my strong belief that we 
don't revitalize technology development at NASA by robbing 
Peter to pay Paul. That is carving out funding from an already 
under-funded Constellation program so that the long-term 
technology program can be augmented. I believe this would be 
penny wise and pound foolish. You don't fix one under-funded 
program by taking money from another under-funded program and 
expect anything good as a result.
    In addition, I suspect that there may not be a one-size-
fits-all organizational structure for technology development at 
NASA, but I want to hear from our witnesses on that topic, as I 
know that each of them have been thinking a lot about this 
issue.
    But it is not just a question of either money or how the 
organizational deck chairs are arranged. NASA has to be smart 
and opportunistic in seeking out ways to get its technologies 
out to the private sector and to other potential government 
users. That is probably a topic for its own hearing, but 
perhaps our witnesses here today will have some thoughts on 
what NASA could possibly do in that regard.
    So I look forward to an interesting and informative 
discussion. I will ask my colleagues today if we can please 
refrain from asking our NASA witnesses about NASA's response to 
the Augustine Panel, which is scheduled to be released later 
today. We know that Mr. Scolese is not going to be able to make 
a comment at this point, and we will have other opportunities 
in the future to get NASA's perspective in the next coming 
weeks.
    So with that again, I would like to welcome our witnesses.
    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good morning. I want to welcome each of our witnesses to today's 
hearing.
    We look forward to your testimony.
    Today is a very busy day on the Hill, and I will be brief in my 
opening remarks so that we have as much time as possible for 
discussion.
    However, I think it's important to note right at the outset that, 
based on their written testimony, all three of our witnesses agree on 
the importance of a vital and robust technology development program at 
NASA, and the need to revitalize NASA's existing technology development 
activities.
    And I think it is fair to say that all three would likely agree 
that NASA has been under-investing in technology development in recent 
years.
    Given that two of our witnesses represent distinguished committees 
of the National Academies, and the third is one of the most senior 
officials at NASA, I think those views warrant our close attention.
    Yet, to some extent, our witnesses are ``preaching to the choir'' 
today.
    This Subcommittee has been concerned for some time about the state 
of NASA's long-term technology programs, and we highlighted the need 
for action in last year's NASA Authorization Act.
    To quote Finding #10 from that Act:

        ``NASA should make a sustained commitment to a robust long-term 
        technology development activity. Such investments represent 
        critically important `seed corn' on which NASA's ability to 
        carry out challenging and productive missions in the future 
        will depend.''

    I would also note that the summary report of the Augustine panel 
that has been reviewing NASA's human space flight plans also 
acknowledged the importance of technology development:

        <bullet>  ``The Committee strongly believes it is time for NASA 
        to reassume its crucial role of developing new technologies for 
        space.''

    That is a sentiment of the Augustine panel with which I heartily 
concur.
    NASA's technology development activities are critical not just to 
NASA's future, but to the quality of life of our citizens and our 
nation's competitiveness.
    Discussions of technology development can wind up sounding pretty 
``wonky'', so let me be clear why I think NASA's efforts are so 
important and need to be supported.
    Here's a picture of a standard commercial aircraft that I think 
makes my point.
    As you look at it, you will see that almost all of its major 
systems and technologies came from research undertaken or funded by 
NASA.
    Here is an aircraft that probably many Members of Congress get in 
several times a week, and yet I bet very few of them--or members of the 
public at large--recognize that NASA R&D made that plane possible.
    And this picture is just one illustration of the impact of NASA's 
research on our society and our economy.
    I have no doubt that each of NASA's other enterprises could provide 
similar examples and I hope they will--it's a story that needs telling 
and re-telling.
    So 1 don't think any of the Members here today need to be convinced 
that NASA should pursue a vigorous program of technology development.
    Rather, we want to explore what it will take to get such a 
revitalized program in place at the agency.
    In that regard, I want to state my strong belief that we don't 
revitalize technology development at NASA by ``robbing Peter to pay 
Paul''.
    That is, carving out funding from an already underfunded 
Constellation program so that the long-term technology program can be 
augmented would be penny-wise and pound-foolish--you don't fix one 
underfunded program by taking funding from another underfunded program 
and expect anything good to result.
    In addition, I suspect that there may not be a ``one-size-fits-
all'' organizational structure for technology development at NASA, but 
I want to hear from our witnesses on that topic, as I know that each of 
them have been thinking a lot about that issue.
    But it's not just a question of either money or how the 
organizational deck chairs arearranged--NASA has to be smart and 
opportunistic in seeking out ways to get its technologies out to the 
private sector and to other potential government users.
    That's probably a topic for a hearing in its own right, but perhaps 
our witnesses here today will have some thoughts on what NASA might do.
    Well, I look forward to an interesting and informative discussion 
today.
    However, in that discussion, I would ask my colleagues to refrain 
from asking our NASA witness about NASA's response to the report of the 
Augustine panel, which is scheduled to bereleased today.
    He is not going to be able to comment on the report at this point, 
and we will have other opportunities to get NASA's perspectives on it 
in the coming weeks.
    With that, I again want to welcome our witnesses, and I'd now like 
to turn to Mr. Olson for any opening remarks he might care to make.

    Chairwoman Giffords. And now I would like to turn to Mr. 
Olson for any opening comments that he would like to make.
    Mr. Olson. Madam Chairwoman, thank you for calling this 
morning's hearing to examine NASA's efforts to foster 
development of advanced and innovative technologies. Let me 
begin by thanking our witnesses for their appearance today 
before this subcommittee. I recognize that each of you spent 
considerable time and effort preparing for this hearing, and in 
some cases traveling considerable distances to be here. Please 
note that this committee appreciates--the subcommittee 
appreciates your efforts as well as the wisdom and experience 
that you bring and that we will refer to your guidance in the 
months and years ahead.
    In the public's mind NASA is synonymous with highly-
innovative, cutting-edge technologies. NASA and its predecessor 
agency, NACA [National Advisory Committee for Aeronautics], 
have amassed a century's worth of remarkable achievements that 
advance the state of the art in aeronautics and astronautics in 
many extraordinary ways. Collectively, they have directly 
contributed to this country's high standard of living both in 
terms of directly contributing to a strong industrial base but 
also through the unanticipated use of technologies and new and 
creative applications developed by the private sector.
    It would be difficult to catalog the number and scope of 
innovations and the technological spin-offs that have sprung 
from their work. But suffice to say that the products springing 
from NASA's technological genius permeates our daily lives, 
most notably the transportation, communications, propulsion, 
and medical industries.
    In recent years NASA has restructured the way it stimulates 
development of new technologies, moving away from an 
independent, centralized office towards a diverse, less-
structured effort influenced more by the needs of individual 
missions and programs. Views expressed by the external science 
community seem to suggest that NASA ought to return to the 
former model.
    I look forward to hearing from this morning's witnesses on 
the most appropriate way to perpetuate NASA's record of 
technology innovation and development. Issues I hope will be 
explored include how to best--how best to broadly reach across 
the science and engineering communities, to stimulate, develop, 
and assess the most creative needs, to what level of maturity 
should promising concepts be funded, and how can the most 
promising technologies be transferred into specific agency 
projects and missions, as well as benefit the commercial 
sector.
    And one last issue. What is the best way to ensure that 
advanced concepts and technology development efforts have the 
necessary funding and management stability. I can't think of 
any other civilian federal agency that has done more to improve 
our Nation's economic and technical prowess than NASA. And it 
is not because NASA is in the business of advancing our social 
wellbeing. Rather their technological discoveries and 
innovations developed in the pursuit of challenging space and 
aeronautics missions have been acquired and adapted by others 
in many creative products and services. It is the genius of 
American people that has made taking those products and turn 
them into something for our economy.
    And before closing, I want to again recognize and thank 
Chris Scolese for his long service and strong leadership at 
NASA. Through the first half of this year you have led the 
agency during an always-challenging period of transition 
between Administrations. Your steady hand and candor is 
appreciated by the Congress and more importantly by the men and 
women who work at NASA.
    Thank you, Madam Chairwoman. I yield back my time.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madam Chairwoman, thank you for calling this morning's hearing to 
examine NASA's efforts to foster and manage the development of advanced 
and innovative technologies.
    Let me begin by thanking our witnesses for their appearance today 
before this subcommittee. I recognize that each of you have spent 
considerable time and effort preparing for this hearing, and in some 
cases traveling considerable distance to be here. Please know that this 
subcommittee appreciates your efforts, as well as the wisdom and 
experience that you bring, and that we will refer to your guidance in 
the months and years ahead.
    In the public's mind, NASA is synonymous with highly innovative, 
cutting edge technologies. NASA and its predecessor agency, NACA, have 
amassed a century's worth of remarkable achievements that advanced the 
state of the art in aeronautics and astronautics in many extraordinary 
ways. Collectively, they have directly contributed to this country's 
high standard of living, both in terms of directly contributing to a 
strong industrial base, but also through the unanticipated use of 
technologies in new and creative applications developed by the private 
sector. It would be difficult to catalog the number and scope of 
innovations, and the technological spin-offs that have sprung from 
their work. But suffice it to say that the products springing from 
NASA's technical genius permeates our daily lives, most notably in the 
transportation, communications, propulsion, and medical industries.
    In recent years NASA has restructured the way it stimulates the 
development of new technologies, moving away from an independent, 
centralized office toward a diverse, less-structured effort influenced 
more by the needs of individual missions and programs.
    Views expressed by the external science community seem to suggest 
that NASA ought to return to the former model.
    I look forward to hearing from this morning's witnesses on the most 
appropriate way to perpetuate NASA's enviable record of technology 
innovation and development. Issues I hope will be explored include how 
best to broadly reach across the science and engineering communities to 
stimulate, develop and assess the most creative ideas; to what level of 
maturity should promising concepts be funded; and how can the most 
promising technologies be transferred into specific agency projects and 
missions, as well as benefit the commercial sector. And one last issue: 
What is the best way to ensure that advanced concepts and technology 
development efforts have the necessary funding and management 
stability?
    I can't think of any other civilian federal agency that has done 
more to improve our nation's economic and technical prowess than NASA. 
And it's not because NASA is in the business of advancing our social 
well-being; rather, their technological discoveries and innovations--
developed in the pursuit of challenging space and aeronautics 
missions--have been acquired and adapted by others in many creative 
products and services.
    Before closing, I want to again recognize and thank Chris Scolese 
for his long service and strong leadership at NASA. Through the first 
half of this year he led the agency during an always challenging period 
of transition between Administrations. His steady hand and candor was 
appreciated by Congress, and more importantly, by the men and women at 
NASA.
    Thank you, Madam Chairwoman. I yield back my time.

    Chairwoman Giffords. Thank you, Mr. Olson. Very well said. 
I am glad you are the Ranking Member. Is there anyone else that 
would like to make an opening statement?
    Mr. Wilson.
    Mr. Wilson. Thank you, Chairman, Chairwoman Giffords. Thank 
you for this important hearing, and thank you for the 
leadership that you have shown on Science and Technology.
    NASA's efforts in the field of advanced concepts and 
technology development have not only moved the field of space 
and aeronautics forward but have improved our lives through the 
use of satellite communications, space-based weather 
observations, and aviation navigation systems.
    In this time of transition and budget constraints I believe 
it is important that NASA continue to have a focus on the 
technologies necessary for not just the next space mission but 
the missions that are in our distant future.
    Panelists, thank you for joining us today and providing 
your opinions and expertise to this subcommittee. I look 
forward to working with each of you, as well as my fellow 
committee members, as we seek to continue NASA's ability to 
explore the far reaches of this universe and inspire our 
country.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Wilson follows:]
         Prepared Statement of Representative Charles A. Wilson
    Thank you Chairwoman Giffords for holding this importanthearing.
    NASA's efforts in the field of advanced concepts and technology 
development have not only moved the field of space and aeronautics 
forward, but have improved our lives thoughthe use of satellite 
communication, spaced-based weather observations, and aviation 
navigation systems. In this time of transition and budget constraints, 
I believe it isimportant that NASA continue to have a focus on the 
technologies necessary for not just the next space mission, but the 
missions that are in the distant future.
    Panelists, thank you for joining us today and providing your 
opinions and expertise tothis Subcommittee. I look forward to working 
with each of you, as well as my fellow Committee members, as we seek to 
continue NASA's ability to explore the far reaches of this universe and 
inspire our country.

    Chairwoman Giffords. Anyone else?
    Okay. At this time I would like to introduce our witnesses. 
First up we have Dr. Robert Braun, who is the Co-Chair of the 
National Research Council's Aeronautics and Space Engineering 
Board Committee to Review the NASA Institute for Advanced 
Concepts. We also have with us today Dr. Raymond S. Colladay, 
who is Vice Chair of the Committee on the Rationale and Goals 
of the U.S. Civil Space Program and Chair of the National 
Research Council's Aeronautics and Space Engineering Board. And 
we have with us Mr. Christopher Scolese, who is the Associate 
Administrator at NASA and who has served with distinction as 
the Acting NASA Administrator until Administrator Bolden was 
confirmed. So welcome all.
    As our witnesses know, you will each have 5 minutes for 
your spoken testimony. Your written testimony has been included 
for the record for this hearing, and when you have completed 
each of your testimony, we will begin a round of questions, and 
all the members will have 5 minutes to question the panel.
    We would like to start today with Dr. Braun.

STATEMENT OF DR. ROBERT D. BRAUN, CO-CHAIR OF THE COMMITTEE TO 
 REVIEW THE NASA INSTITUTE FOR ADVANCED CONCEPTS, AERONAUTICS 
     AND SPACE ENGINEERING BOARD, NATIONAL RESEARCH COUNCIL

    Dr. Braun. Chairwoman Giffords, Ranking Member Olson, and 
members of the subcommittee, thank you for the honor of 
appearing before you today to discuss the approaches to 
strengthen NASA's advanced concept and technology development 
programs. My name is Robert Braun. The views I express today 
have been shaped through a 22-year career in aerospace 
engineering in both government and academic positions. Today I 
speak to you as the Co-Chair of the National Research Council's 
committee to review the NASA Institute for Advanced Concepts.
    With your permission I would like to summarize my views 
this morning, leaving sufficient time to answer your questions. 
I would like to begin with a summary of our NRC report.
    NASA established the NASA Institute of Advanced Concepts 
[NIAC] in 1998, to provide an independent, open forum for the 
external analysis and definition of revolutionary space and 
aeronautics concepts. These were concepts that could impact a 
NASA mission 10 to 40 years in the future.
    Funded at approximately $4 million per year or roughly .02 
percent of NASA's budget, NIAC operated for approximately 9 
years and received a total of 1,309 proposals from which they 
made 126 phase one awards and 42 phase two awards, primarily to 
small businesses and universities throughout the country.
    At its inception NIAC was envisioned as a cross-cutting 
program reporting to the agency's chief technologist. However, 
in 2004, NIAC program management within NASA was transferred 
into one of the mission directorates, NASA's Exploration 
Systems Mission Directorate, and in 2007, NIAC was terminated.
    I would like to highlight the following four key findings 
and recommendations from our committee report. One, NIAC met 
its mission and accomplished its stated goals. Two, NASA and 
the Nation need a NIAC-like organization. Three, the original 
NASA implementation of NIAC as an external organization managed 
above and across the mission directorates was effective, and 
four, modifications could be made both within NIAC itself and 
within NASA to improve the effectiveness of this enterprise. 
Chief among these modifications would be potentially 
reestablishing an aeronautics and space systems technology 
development enterprise within NASA itself.
    In my view a NASA strongly positioned for the future should 
include a brand of mission focused near-term, capability based, 
mid-range, and discipline based, long-term technology 
investments strategically guided by continuously engaged 
advanced concepts program.
    However, at present there is no NASA organization 
responsible for the solicitation, evaluation, and maturation of 
advanced concepts or for the subsequent infusion of those 
worthy concepts into NASA's strategic planning process.
    In addition, while mid-range capability-based technology 
investments are perhaps the most critical for a forward-looking 
agency like NASA, within NASA today it is this type of 
technology investment that is actually minimal. In my opinion 
this is not appropriate for an agency whose purpose includes 
demonstrating this Nation's scientific and technological 
prowess. Or one that is trying to inspire the next generation 
of engineers and scientists. A technology-poor NASA greatly 
hampers our aeronautics and spaceflight development programs.
    As an example, we cannot continue to rely on 1970s era 
technology to land systems on Mars, particularly if we want to 
one day build towards eventual human exploration. Another 
example, as stated by both the Aldridge Commission in 2004, and 
the Augustine Commission this year, we cannot plan a 
sustainable human exploration program without strong technology 
leverage.
    Based on these observations I suggest NASA establish a 
formal enterprise to continuously evaluate, prioritize, and 
mature a strategically selected set of technologies in the 
relevant environments. Many positive outcomes are likely from a 
long-term, broadly-focused NASA advanced concepts and 
technology development program.
    Chief among these consequences is the provision of a more 
exciting aeronautics and space future than our country has 
today. A suite of game-changing space and aeronautic 
discoveries are within our Nation's grasps. Each of these 
advances would also serve as a spark to a technology-based 
economy, an international symbol of our country's scientific 
innovation, engineering creativity, and technological skill, 
and a component of the remedy to our Nation's scientific and 
mathematic literacy challenges.
    Our Nation needs to dream big, and achieving large goals is 
precisely what America has come to expect of NASA. With a 
stronger focus on technology development NASA would be well 
poised to deliver on some of societies' grand challenges.
    This completes my introductory remarks. I would be happy to 
respond to any questions you may have. Thank you.
    [The prepared statement of Dr. Braun follows:]
                 Prepared Statement of Robert D. Braun
    Madame Chairwoman, Ranking Member Olson and members of the 
Subcommittee, thank you for the honor of appearing before you today to 
discuss approaches to strengthen NASA's advanced concept and technology 
development programs. My name is Robert D. Braun. The views I express 
today have been shaped through a twenty-two year aerospace engineering 
career in government and academia. For sixteen years, I served on the 
technical staff of the NASA Langley Research Center. At NASA, I 
developed advanced space exploration concepts, managed multiple 
technology development efforts, and contributed to the design, 
development, test and operation of several robotic Mars flight systems. 
For the past 6 years, I have served on the faculty of the Daniel 
Guggenheim School of Aerospace Engineering at the Georgia Institute of 
Technology. As Director of Georgia Tech's Space Systems Design 
Laboratory, 1 lead an active research and educational program focused 
on the design of advanced flight systems and technologies for planetary 
exploration. The advanced space systems concept and technology 
maturation skills being developed by the undergraduate and graduate 
students at Georgia Tech are of significant interest to NASA, the U.S. 
Air Force, DARPA, our national labs, industry, and others in academia. 
It gives me great pride to work closely with these students, who are on 
their way to becoming the space systems engineers of our nation's 
future.
    Today, I speak to you as the Co-chair of the National Research 
Council's Committee to Review the NASA Institute for Advanced Concepts, 
which recently released our report Fostering Visions for the Future: A 
Review of the NASA Institute for Advanced Concepts. The committee's 
twelve members were chosen by the NRC for their experience with 
advanced space and aeronautical concepts and their insight into cogent 
approaches to spark scientific innovation and creativity. They 
represent a diverse cross-section of aerospace sector experience, 
including NASA, DARPA, the SETT Institute, industry, and academia. The 
committee was co-chaired by Dianne S. Wiley, a Technical Fellow at 
Boeing Phantom Works and myself. I must say that it was a pleasure to 
work through the NRC with this talented and experienced group of 
people.
    In response to the first question posed by the subcommittee, I 
would like to begin by summarizing our committee report.

Fostering Visions of the Future: A Review of the NASA Institute for 
                    Advanced Concepts

    NASA established the NASA Institute for Advanced Concepts (NIAC) in 
1998 to provide an independent, open forum for the external analysis 
and definition of revolutionary space and aeronautics concepts to 
complement the advanced concepts activities conducted within the 
Agency. Funded at approximately $4 million per year (roughly 0.02% of 
NASA's budget), MIAC received a total of $36.2 million in NASA funding 
during the 9 years of its existence. As directed by the NASA SOW, NIAC 
focused on revolutionary advanced concept studies that could impact a 
NASA mission 10 to 40 years in the future. NIAC inspired an atmosphere 
of innovation that stretched the imagination and encouraged creativity. 
In response to its yearly solicitations, NIAC received a total of 1309 
proposals, and made 126 Phase I awards and 42 Phase II awards, 
primarily to small businesses and universities, but also to large 
businesses and national laboratories. To reduce costs and maximize 
public accessibility, NIAC utilized an open, web-based environment to 
conduct solicitations, perform peer review, administer grant awards, 
and publicize its activities. NIAC received an ``Excellent' performance 
rating in each NASA annual review held. Many NIAC grantees went on to 
receive additional funding for continued development of their concept 
from NASA, other government agencies or private industry. In addition 
to developing revolutionary concepts, NIAC placed an emphasis on 
science and engineering education as well as public outreach. At its 
inception, NIAC was envisioned as a crosscutting program reporting to 
the Agency's Chief Technologist. In 2004, when the NASA Office of 
Aerospace Technology was dissolved, NIAC program management was 
transferred into the NASA Exploration Systems Mission Directorate. In 
2007, NIAC was terminated.
    In 2008, Congress directed the National Research Council (NRC) to 
conduct a review of the effectiveness of NIAC and to make 
recommendations concerning the importance of such a program to NASA and 
to the nation. Our committee was given the following statement of task:

        1)  Evaluate NIAC's effectiveness in meeting its mission.

        2)  Evaluate the method by which grantees were selected.

        3)  Make recommendations on whether NIAC or a successor entity 
        should be funded by the Federal Government.

        4)  Make recommendations as to how the Federal Government in 
        general and NASA in particular should solicit and infuse 
        advanced concepts Into its future systems.

    In evaluating NIAC's performance, the committee addressed the 
following questions:

        1)  To what extent were the NIAC-sponsored advanced concept 
        studies innovative and technically competent?

        2)  How effective was NIAC in infusing advanced concepts into 
        NASA's strategic vision, future mission plans, and technology 
        development programs?

        3)  How relevant were these studies to the aerospace sector at 
        large?

        4)  How well did NIAC leverage potential partnerships or cost-
        sharing arrangements?

        5)  What potential approaches could NASA pursue in the future 
        to generate advanced concepts either internally or from 
        external sources of innovation?

    The key findings and recommendations from our report can be 
summarized in the following seven statements:

    1) NIAC met its mission and accomplished its stated goals. The 
committee found that NIAC's approach to implementing its functions 
successfully met NASA-defined objectives, resulted in a cost-effective 
and timely execution of advanced concept studies, afforded an 
opportunity for external input of new ideas to the agency, and 
subsequently provided broad public exposure of NASA programs. NIAC was 
successful in encouraging and supporting a wide community of innovators 
from diverse disciplines and institutions as evidenced by receipt of 
1309 proposals in its 9-year lifetime. The 126 NIAC Phase I studies 
were led by a total of 109 distinct principal investigators, each of 
whom led a research team of 3-10 personnel, often across multiple 
organizations. The majority of the NIAC-supported efforts were highly 
innovative. Many were successful. in pushing the state of the art. 
Overall, the efforts supported produced results commensurate with the 
funding and risk involved.
    2) NIAC had infusion successes and challenges. One important NIAC 
performance metric defined in the NASA SOW was achievement of 5 to 10 
percent infusion of NIAC-developed Phase II concepts into NASA's long-
term plans. One way to gauge such infusion is to look at the receipt of 
post-NIAC funding for the continued development of a NIAC-funded 
concept. The committee found that 14 NIAC Phase I and Phase II 
projects, which were awarded $7 million by NIAC, received an additional 
$23.8 million in funding from a wide range of organizations, 
demonstrating the significance of the nation's investment in these NIAC 
advanced concepts. NIAC matured 12 of the 42 Phase II advanced concepts 
(29 percent), as measured by receipt of post-NIAC funding. In fact, 9 
of these (21 percent) received post-NIAC funding from NASA itself. Over 
the long term, the ultimate criterion for NIAC success is the number of 
funded projects that make their way into the relevant NASA mission 
directorate decadal survey, strategic plan, or mission stream. The 
committee found that three NIAC Phase II efforts (7 percent of the 
Phase II awards) appear to have impacted NASA's long-term plans. Of 
significance, two of these efforts have either already been 
incorporated or are currently under consideration by the NRC Astronomy 
and Astrophysics Decadal Survey as future NASA missions: the MAXIM x-
ray interferometry concept for black hole imaging and the New Worlds 
Observer constellation for exoplanet discovery. Considering the 40-year 
planning horizon of NIAC activities coupled with the 9-year existence 
of MIAC, the committee believes it is likely that the number of NIAC 
Phase II projects considered for NASA missions will continue to 
increase over time.
    On the other hand, by design, the maturity of NIAC Phase II 
products was such that a substantial additional infusion of resources 
was needed before these advanced concepts could be deemed technically 
viable for implementation as part of a future NASA mission or flight 
program. The committee found that this technology readiness immaturity 
created infusion difficulties for the NIAC program and innovators, 
causing promising ideas to wither on the vine.
    3) NASA and the nation need a NIAC-like organization. NASA is now 
an agency largely oriented toward flight-system development and 
operations. Priorities have thus diminished within NASA for long-range 
research and development efforts. At present, there is no NASA 
organization responsible for solicitation, evaluation, and maturation 
of advanced concepts (defined as those at technology readiness level 
one or two) or responsible for subsequent infusion of worthy concepts 
into NASA planning and development activities. Over the past few years, 
such NASA efforts have been ad hoc, lacking in long-term stability, and 
not integrated into the agency's strategic planning process. Managed in 
this fashion, advanced concept efforts will rarely produce mature 
products and the agency is at risk of driving away many of its most 
creative personnel. Our committee believes that NASA and the nation 
would be well served by maintaining a mechanism to investigate 
visionary, far-reaching advanced concepts as part of NASA's mission.\1\ 
Concepts deemed feasible could be used to inform NASA's strategic 
planning process. Long-term, these concepts and technologies offer the 
potential for dramatic improvements in performance and/or cost of 
future aeronautical and space systems. As such, the committee 
recommends that NASA should reestablish a NIAC-like entity, referred to 
in our report as NIAC2, to seek out visionary, far-reaching, advanced 
concepts with the potential of significant benefit to accomplishing 
NASA's charter and to begin the process of maturing these advanced 
concepts for infusion into NASA's missions. The existence of such an 
organization would also demonstrate that NASA continues to be a driver 
of innovation and technological competitiveness, potentially serving as 
a critical element of NASA's public and educational value to the 
nation.
---------------------------------------------------------------------------
    \1\ Section 102.c.4 of the National Aeronautics and Space Act of 
1958 includes provision for the conduct of the aeronautical and space 
activities of the United States toward establishment of long-range 
studies of the potential benefits to be gained from, the opportunities 
for, and the problems involved in the utilization of aeronautical and 
space activities for peaceful and scientific purposes.
---------------------------------------------------------------------------
    4) The original NASA implementation of NIAC as an external 
organization managed above and across the mission directorates was 
effective. When it was initially formed, NIAC was managed by a high-
level agency executive concerned with the objectives and needs of all 
NASA enterprises and missions. The committee found that NIAC was most 
successful as a program with crosscutting applicability to NASA's 
enterprises and missions. When it was transferred to a mission-specific 
directorate, NIAC lost its alignment with sponsor objectives and 
priorities. To allow for sustained implementation of NIAC2 infusion 
objectives, the committee recommends that NIAC2 report to the Office of 
the Administrator, be outside mission directorates, and be chartered to 
address NASA-wide mission and technology needs. To increase NIAC2's 
relevance, NASA mission directorates should contribute thematic areas 
for consideration in the proposal solicitation process. The committee 
also recommends that this NIAC2 organization be funded and administered 
separately from NASA development programs, mission directorates, and 
institutional constraints. Future NIAC2 proposal opportunities should 
continue to be managed and peer-reviewed outside the agency.
    5) NIAC2 modifications should be made to improve effectiveness. 
While NIAC's Internet-based technical review and management processes 
were found to be effective and should be continued in NIAC2, the 
committee found a few policies that may have hastened NIAC's demise. 
Key among these was (1) the exclusive focus on revolutionary advanced 
concepts, (2) the exclusion of NASA personnel from participation in 
NIAC awards or research teams, and (3) the immaturity of NIAC Phase II 
products relative to that required for implementation as part of a 
future NASA mission or flight program.
    By definition, visionary advanced concepts will not be near-term. 
However, in our committee discussions, it was felt that NIAC's complete 
focus on revolutionary concepts (as directed in its NASA SOW) was too 
long-term, creating a cultural mismatch between the NIAC products and 
its mission-focused sponsors and causing infusion difficulties for the 
NIAC innovators. As such, the committee recommends that the key 
selection requirement for NIAC2 proposal opportunities be that the 
concept is scientifically and/or technically innovative and has the 
potential to provide major benefit to a future NASA mission of 10 years 
and beyond. While 10 years and beyond includes concepts that could be 
40 years or farther in the future, the committee felt that these 
modifications in focus would likely result in NIAC2 efforts with a 
higher probability of infusion into NASA's strategic planning process.
    NIAC was formed to provide an independent, open forum for the 
external analysis and definition of space and aeronautics advanced 
concepts to complement the advanced concepts activities conducted 
within NASA; hence, NIAC solicitations were closed to NASA 
participants. However, NIAC was formed at a time when there was 
adequate funding internal to NASA for development of novel, long-term 
ideas. As internal NASA funding for advanced concepts and technology 
diminished or became more focused on flight-system development and 
operations, the cultural disconnect between the development activities 
internal and external to the agency grew, and transitioning of NIAC 
concepts to the NASA mission directorates became more difficult. The 
committee recommends that future NIAC2 proposal opportunities be open 
to principal investigators or teams both internal and external to NASA.
    In addition, the committee believes that the potential for receipt 
of a NIAC2 Phase III award is needed to aid the transition of the most 
highly promising projects. Therefore, the committee recommends that 
future NIAC2 proposal opportunities include the potential selection of 
a small number of Phase III ``proof of concept'' awards for up to $5 
million each over as much as 4 years to demonstrate and resolve 
fundamental feasibility issues and that such awards be selected jointly 
by NIAC2 and NASA management.
    6) NASA modifications should be made to improve effectiveness. The 
lack of a NASA interface to receive the hand-off of promising projects 
was a persistent NIAC challenge. To improve the manner in which 
advanced concepts are infused into its future systems and to build a 
culture that continuously strives to advance technology, the committee 
recommends that NASA consider reestablishing an aeronautics and space 
systems technology development enterprise.\2\ Such an organization 
would serve to preserve the leadership role of the United States in 
aeronautical and space systems technology.\3\ Its NIAC2-oriented 
purpose would be to provide maturation opportunities and agency 
expertise for visionary, far-reaching concepts and technologies. NASA's 
considerations for such an enterprise should include implications for 
the agency's strategic plan, effective organizational approaches, 
resource distributions, field center foci, and mission selection 
process. Increased participation of NASA field center personnel, beyond 
review and management functions, should also significantly enhance 
advanced concept maturation and infusion into NASA mission planning. 
The committee also recommends identification of center technical 
champions and provision for the technical participation of NASA field 
center personnel in NIAC2 efforts. Participation of NASA personnel is 
expected to increase as NIAC2 projects mature.
---------------------------------------------------------------------------
    \2\ Similar findings are made in A Constrained Space Exploration 
Technology Program: A Review of NASA's Exploration Technology 
Development Program, The National Academies Press, Washington, D.C., 
2008; and America's Future in Space: Aligning the Civil Space Program 
with National Needs, The National Academies Press, Washington, D.C., 
2009.
    \3\ Section 102.c.5 of the National Aeronautics and Space Act of 
1958 includes provision for the conduct of the aeronautical and space 
activities of the United States for the preservation of the role of the 
United States as a leader in aeronautical and space science and 
technology and in the application thereof to the conduct of peaceful 
activities within and outside the atmosphere.
---------------------------------------------------------------------------
    7) The budget requirement for a strong advanced concepts 
development activity reaches a steady-state value of approximately $10M 
per year. Our committee believes that the NIAC was generally funded 
appropriately (approximately $4M/year) for its stated Phase I and Phase 
II objectives. We believe that NIAC2 proposal opportunities should be 
defined as follows: Phase I up to $100,000 each for 1 year; Phase II, 
up to $500,000 each for 2 years; Phase III proof-of-concept awards for 
up to $5 million each over as much as 4 years. Clearly, the number of 
such awards could be used as a control on the overall program budget. 
For example, in the first year of NIAC2, perhaps a dozen Phase I awards 
would be made for $1.2M, plus administrative costs. Including 4 Phase 
II awards in the following year would push the required yearly budget 
to approximately $2.2M (plus administrative costs). As a strawman, note 
that if NIAC2 funded 12 Phase I awards, 4 Phase II awards, and 1 Phase 
Ill award in each subsequent year, the budget requirement would 
increase by $1.25M each year until reaching a steady-state value of 
$8.2M in year six and beyond (plus administrative costs). In a strategy 
like this, the overall program budget is largely dependent on selection 
of the Phase III awards. If NASA saw value in the potential offered by 
multiple Phase III proposals, additional funds could be secured. If 
funding were tight in a given year, no Phase III awards would be made.
    NIAC2 funding decisions should be made within the context of a 
well-funded NASA aeronautics and space systems technology enterprise 
that is both actively seeking advanced system concepts and maturing the 
requisite technological solutions. Large-scale technology development 
aspects of this enterprise were beyond the committee's charter, and 
would require considerably more funding than the $10M proposed for 
NIAC2. These larger funding issues are addressed in my response to the 
subcommittee's next question.
    In addressing the subcommittee's remaining questions, I am guided 
by my personal experience in NASA and academia. Although the NRC NIAC 
committee's discussions touched on these topics, this committee was not 
specifically tasked to address these broader subjects.
    In response to the second question posed by the subcommittee, I 
would like to define the scope of a broadly focused long-term program 
dedicated to stimulate innovation and develop new concepts and 
capabilities, and then describe the results our nation should expect 
from such a program.

Three Technology Development Classes and the Need for a Strengthened 
                    Capability-Based Technology Development Effort 
                    within NASA

    In my experience, there are three general classes of technology 
development programs: mission-focused (near-term), discipline-based 
(long-term), and capability-based (mid-range). A NASA strongly 
positioned for the future should sponsor a blend of these three 
technology development classes, strategically guided by the results of 
a continuously engaged advanced concepts program. It is in this way 
that an advanced concepts program can be used to inform an 
organization's strategic planning process and provide value to its 
technology investment decisions. The success of such an enterprise will 
clearly be dependent on the group of program managers and systems 
engineers making technology readiness assessment and technology 
investment decisions for the agency. Passionate, hard-charging systems 
engineers and program managers who remain objectively focused on the 
long-term development needs of the agency, independent of the agency's 
institutional constraints, and out of the proverbial technology sandbox 
will be required. A series of competitively awarded activities spanning 
near-term, mid-term and long-term aeronautics and space systems needs 
is likely the best means of implementing a successful technology 
development program. Competitive awards should be made based on an 
objective assessment of the agency's strategic need, the proposed 
technical scope and product realism.
    Mission-focused technology programs abound in most current large 
NASA programs. Consider, for example, NASA's human spaceflight program. 
In development of the Constellation architecture, priority was given to 
near-term systems with the goal of an early initial operational 
capability--existing technology with low risk was the Constellation 
mantra. In fact, funding from a wide range of NASA advanced technology 
programs was redirected to enable this capability. However, even with 
its near-term focus and budgetary challenges, the Constellation program 
required and funded a small number of mission-focused technologies to 
enable qualification of the key technologies required for mission 
success. These mission-focused technology programs include a lunar-
return capable heatshield, an autonomous landing and hazard avoidance 
system for lunar landing operations, and lunar in-situ resource 
utilization.\4\ Without such technological advances, NASA's current 
approach to returning humans to the Moon would be dramatically 
impacted. Similar mission-focused technology investments have allowed 
NASA's robotic exploration program to pursue advanced science missions 
like the Mars Science Laboratory and Webb Space Telescope. Clearly, 
these are important investments that require NASA funding. However, 
these mission-focused activities are not the only technology 
investments that an agency that prides itself on innovation and 
pushing-the-boundary should pursue.
---------------------------------------------------------------------------
    \4\ A Constrained Space Exploration Technology Program: A Review of 
NASA's Exploration Technology Development Program, The National 
Academies Press, Washington, D.C., 2008.
---------------------------------------------------------------------------
    Within NASA, the ARMD Fundamental Aeronautics program is the only 
present program of which I am aware that is pursuing discipline-based 
technological solutions. Longer term by nature and generally funded at 
a much lower level, these technology advances are often pursued with 
the promise of enabling dramatic performance improvements in one or 
more aerospace disciplines, and the potential for major system advances 
across multiple future programs. While ARMD funding is largely directed 
internal to NASA and its aeronautics challenges, examples of possible 
discipline-based technology investments include laminar flow control 
technology, high-temperature materials and structures, hypersonic 
airbreathing propulsion, advanced in-space propulsion, robust 
navigation and control algorithms, high-efficiency solar power systems, 
radiation protection systems, and inflatable structures. In addition, 
NASA can now offer unique, discipline-based microgravity research 
opportunities through effective utilization of the International Space 
Station.
    The United States boasts a tremendously successful robotic Mars 
program. Continuous orbital observations of the Mars surface have been 
made for more than a decade and six robotic systems have now been 
placed on the surface of Mars. While each of these six landed missions 
has been an incredible technological accomplishment in itself, these 
robotic systems have each landed less than 0.6 metric tons within 
landing footprints on the order of hundreds of kilometers. At present, 
robotic exploration systems engineers are struggling with the 
challenges of increasing landed mass capability to just 1 metric ton 
(less than half the Earth weight of a 2009 Ford Explorer) while 
improving landed accuracy to 10 kilometers for the Mars Science 
Laboratory project. Meanwhile, the planning of subsequent robotic 
exploration missions under consideration for the 2020 decade may 
require several metric tons in landed mass capability and current plans 
for human exploration of Mars call for landing 40-80 metric ton surface 
elements within close proximity (tens of meters) of pre-positioned 
robotic assets. These future mission requirements cannot be met with 
NASA's present suite of entry, descent and landing technologies and are 
one reason that human Mars exploration is viewed as a ``bridge too 
far'' by many in the aerospace and public policy communities. However, 
analysis suggests that there are a handful of promising entry, descent 
and landing capabilities that may prove feasible for these larger 
landed systems, enabling future Mars exploration concepts of which 
today we can only dream. These technologies are termed capabilities 
because these same general systems may also prove advantageous for 
Earth-return missions or missions to other planets--such developments 
are not specific to a single mission. Additional capability-focused 
technology needs abound in deep space exploration, astrophysics, 
aeronautics, and Earth science. In each case, NASA technology 
investment is critical--for without such an investment, these future 
missions will simply not occur.
    Strategic assessment of our nation's future spaceflight technology 
needs was performed by both the Aldridge Commission \5\ in 2004 and the 
Augustine Commission \6\ in 2009. Each commission concluded that 
successful development of a set of enabling technologies (or 
capabilities) is critical to attainment of human and robotic 
exploration objectives within reasonable schedule and affordable cost. 
The NASA Authorization Act of 2008 furthered this sentiment by 
codifying it into law. Section 405 of this Act states, ``A robust 
program of long-term exploration-related research and development will 
be essential for the success and sustainability of any enduring 
initiative of human and robotic exploration of the solar system.'' This 
Act further states that this program shall not be tied to specific 
flight projects. I strongly agree with the capability-based technology 
sentiment expressed by these two Presidential Commissions and the NASA 
Authorization Act of 2008.
---------------------------------------------------------------------------
    \5\ Report on the President's Commission on Implementation of U.S. 
Space Exploration Policy: A Journey to Inspire, Innovate and Discover, 
June 2004.
    \6\ Summary Report on the Review of U.S. Human Spaceflight Plans, 
September 2009.
---------------------------------------------------------------------------
    While mid-term, capability-based technology investments are perhaps 
the most critical for a forward-looking Agency like NASA; within NASA 
today, this type of technology investment is minimal. NASA presently 
invests approximately $1.35B on a range of near-term, mid-range and 
long-term technologies \7\ Approximately two-thirds of this investment 
is directed toward near-term mission-focused technologies that are 
strongly coupled to NASA's existing programs. This allocation leaves 
approximately $0.45B (less than 3% of NASA's total budget) for 
capability-based technology development and discipline-based 
fundamental research that is not tied to existing program requirements. 
However, at present, a majority of these remaining funds are allocated 
to the longer-term ARMD Fundamental Aeronautics program, leaving little 
mid-range capability-based technology investment.
---------------------------------------------------------------------------
    \7\ NASA Innovation and Technology Initiative: Enabling NASA's 
Future and Addressing National Needs, Briefing to NRC ASEB by Dr. 
Laurie Leshin, NASA, October 2009.

Anticipated Results from a Broadly Focused Long-Term NASA Program to 
                    Develop Advanced Concepts and their Associated 
                    Technologies

    Many positive outcomes are likely from a long-term, broadly focused 
NASA advanced concepts and technology development program that include 
mission-focused, capability-based and discipline-based components. 
Chief among these consequences is the provision of a more vital and 
productive aeronautics and space future than our country has today. 
Each year, in the first lecture of my freshman Introduction to 
Aerospace Engineering class, I share with these recent high-school 
graduates a list of accomplishments that I believe our nation's civil 
aeronautics and space program is capable of achieving in my lifetime:

Ten Anticipated Paradigm-Changing Civil Aeronautics and Space Advances

        1)  Quantify Causes, Trends and Effects of Long-Term Earth 
        Climate Change

        2)  Accurately Forecast the Emergence of Major Storms and 
        Natural Disasters

        3)  Develop and Utilize Efficient Space-Based Energy Sources

        4)  Prepare an Asteroid Defense

        5)  Identify Life Elsewhere in our Solar System

        6)  Ientify Earth-like Worlds Around Other Stars

        7)  Initiate Interstellar Robotic Exploration

        8)  Achieve Reliable Commercial Low-Earth Orbit Transportation

        9)  Achieve Affordable Supersonic Business Travel

        10)  Achieve Permanent Human Presence Beyond the Cradle of 
        Earth

    Advances of this type are more than a single professor's dream--
they are a spark to a technology-based economy, an international symbol 
of our country's scientific and technological leadership, and a 
component of the remedy to our nation's scientific and mathematics 
literacy challenges. I genuinely believe that game-changers like these 
are within our nation's grasp. Capability-based technology investment, 
focused leadership and stability of purpose are the only elements 
holding us back. Landing humans on Mars requires an investment in 
advanced technology, as does developing a telescope capable of 
detecting Earth-size planets around other stars, flying a new 
generation of human-rated launch systems, or identifying life elsewhere 
in our solar system. Our nation needs to dream big, and large goals, 
like these, are precisely the kind of objectives that our nation has 
come to expect of NASA. It is equally clear that in the absence of 
sustained, broad-based technology investments, the United States will 
not continue to make significant advances in aeronautics, space, and 
the associated sectors of our society. Investments of this scale will 
not be without cost. I believe that our nation would be well served by 
investing at least 10% of NASA's budget in support of the technologies 
required to dramatically advance entirely new aeronautics and space 
endeavors (in contrast to an investment of less than 3% today).
    In this same class, I often ask the students why they are choosing 
to become aerospace engineers. In general, these 18-year olds are 
motivated by a strong desire to contribute to humanity's future by 
solving our nation's grand technological challenges. They want to work 
with others (and in organizations) who feel the same way. As such, a 
well managed, broad-based advanced concepts and technology development 
enterprise can serve as a catalyst to revitalize our nation's aerospace 
workforce with the best and brightest of tomorrow. Such an organization 
can also serve to demonstrate that NASA continues to be a driver of 
scientific innovation, engineering creativity and technological 
competitiveness for our country and around the world.
    NASA technology innovation efforts are also bound to stimulate the 
university and commercial sectors, create new business and increase the 
number of high-tech jobs across our nation. As a small-scale example, 
NIAC efforts contributed to the launch of a new business division 
within ENSCO and two entirely new businesses (Space Elevator: Black 
Line Ascension and Liftport).
    In response to the third question posed by the subcommittee, I 
would like to briefly discuss the additional uncertainty and risk 
associated with developing new concepts and technologies within NASA's 
flight projects.

Technology Development within NASA's Missions Contribute Significant 
                    Cost and Schedule Risk

    Implementation of NASA space flight missions is fraught with 
complex systems engineering challenges due to the extreme environment 
in which these systems must reliably operate. Completing a spaceflight 
mission within its established budget and schedule constraints is one 
of the most difficult undertakings in the engineering field. As such, I 
have great respect for those within NASA who have succeeded in these 
endeavors. These missions demand a focus on technical excellence across 
the organization, a systems engineering approach to project 
implementation, technical insight and crisp decision-making from 
project managers, clear communication across the organization, and 
early risk identification, prioritization, and mitigation. In addition, 
trades between performance, cost, schedule and risk are generally 
constrained by program-level decisions and public policy decisions made 
outside the project's control. In my view, adding requirements for 
technology development to a NASA flight project in the implementation. 
phase is inherently risky and a poor program management practice.
    In March 2009, in testimony presented before this subcommittee 
entitled, NASA Projects Need More Disciplined Oversight and Management 
to Address Key Challenges, a GAO representative described her analysis 
of thirteen NASA flight projects in the implementation phase. In this 
project phase, systems design is completed, scientific instruments are 
integrated, and the flight system is fabricated and prepared for 
launch, Prior to entering the implementation phase, it is standard NASA 
practice to have finalized requirements, concepts and technologies and 
establish a baseline project plan. Ten of the thirteen NASA projects in 
the implementation phase assessed by the GAO experienced significant 
cost and/or schedule growth from their project baselines. Of the five 
causes of cost and/or schedule growth cited by the GAO, two issues 
pertain directly to technology development risk: technology immaturity 
and modifications required to previously considered heritage items. The 
common symptom of these two causes is a technological readiness 
considerably below that estimated by the project. The GAO report 
concludes, ``Simply put, projects that start with mature technologies 
experience less cost growth than those that start with immature 
technologies.'' I fully agree with this statement.
    NASA also knows this lesson. In fact, NASA requires all 
technologies used in its competitive missions to be at a technology 
readiness level of six (system/subsystem model or prototype 
demonstration in a relevant environment) or higher by the beginning of 
the project implementation phase. In a competitive proposal, failure to 
have such a technology maturation plan is cited as a major weakness. As 
such, few, if any, competed missions begin plementation while still 
developing technology. However, this same approach is not generally 
applied to NASA's larger space flight programs, which often rely on 
large technology advancements as part of project implementation due to 
the significant performance gains that they are attempting to achieve. 
As a result, large, non-competed projects tend to encounter significant 
cost overruns and/or schedule delays as a result of technology risk. 
Insisting on an adequate formulation phase in which technology risk is 
firmly retired, before committing project implementation funding, is 
the most straightforward means for reducing the cost and schedule risk 
of these large NASA missions.
    In response to the fourth question posed by the subcommittee, I 
would like to briefly discuss the time horizons required for the 
development of advanced concept and technology development programs.

Time Horizons on Advanced Concept and Technology Development Programs

    A long-term, broadly focused NASA advanced concepts and technology 
development enterprise should span multiple timeframes in which the 
maturation plan for a given technology should be coupled to the 
agency's strategic planning process through ongoing NIAC2 advanced 
concept studies. Within this enterprise, one can envision a blend of 
technology development timeframes spanning 2-5 years for mission-
focused technology (moderate $ investment), 5-15 years for capability-
based technology (large $ investment), and 15-40 years for discipline-
based technology (modest $ investment). Competitive awards across these 
technology classes should be made on a 2-3 year cycle depending on the 
milestones achieved and funding availability. Technology project 
development lifecycles spanning 2-5 years are anticipated. In this 
scenario, the technology development enterprise should partner with 
NASA's existing flight programs such that the mission-focused 
technologies it funds benefit from at least a 50% cost contribution 
from the relevant mission directorate. This strategy should allow for 
capability-based technologies, which are not tied to NASA's existing 
missions, to dominate the investment portfolio of the technology 
development enterprise. This emphasis on capability-based technology is 
absent in NASA today. A broad range of discipline-based investments 
should also be funded at a lower level.
    Use of NIAC2 as a long-term asset to inform NASA's strategic 
planning process is a key component of this plan. NIAC2 can look out 
for advanced concepts beyond the current development programs. It can 
work on the edges where requirements are not yet known, focused on what 
program managers would want if they knew that they needed it. However, 
it is also clear that for this independent organization that nurtures 
technology push to succeed, it must be partnered with a substantive 
NASA enterprise of technology pull, managed at the agency-level and 
working in concert with NASA's existing mission directorates.

Summary

    There is little capability-based technology development within NASA 
today and no NASA organization responsible for solicitation, 
evaluation, and maturation of advanced concepts or responsible for 
subsequent infusion of worthy concepts into NASA's strategic planning 
process. In my view, this is not acceptable for an agency whose purpose 
includes demonstrating this nation's scientific and technological 
prowess, or one that is trying to Inspire the next generation of 
engineers and scientists. A technology-poor NASA greatly hampers our 
aeronautics and space flight development programs. We cannot continue 
to rely on 1970's-era technology to land systems on Mars, particularly 
if we want to build toward eventual human exploration. We cannot 
continue to explore the solar system robotically without advanced in-
space propulsion and atmospheric flight technologies as part of our 
future mission portfolio. We cannot plan a sustainable human 
exploration program without strong technology leverage. Strategic 
assessment of our nation's future spaceflight technology needs was 
performed by both the Aldridge Commission in 2004 and the Augustine 
Commission in 2009. Each commission concluded that successful 
development of a set of enabling technologies (or capabilities) was 
critical to attainment of space exploration objectives within a 
reasonable schedule and affordable cost. The NASA Authorization Act of 
2008 furthered this sentiment by codifying it into law. Based on these 
inputs, I suggest NASA establish a formal enterprise to continuously 
evaluate, prioritize, and mature these technologies in the relevant 
environments. Within this enterprise, a blend of technology development 
activities spanning mission-focused technology (2-5 year maturation 
timeframe, moderate $ investment), capability-based technology (5-15 
year maturation timeframe, large $ investment), and discipline-based 
technology (15-40 year maturation timeframe, modest $ investment) 
should be pursued.
    Our nation would be well served by investing at least 10% of NASA's 
budget in support of the technologies required to dramatically advance 
entirely new aeronautics and space endeavors (in contrast to an 
investment of less than 3% today). This investment would include a 
small amount for advanced concepts so difficult to achieve that their 
chance of individual success within a decade is less than 10%, yet 
concepts so innovative that their success could serve as game-changers 
for this vital, national industry. Our nation needs to dream big, and 
large goals are precisely what our nation has come to expect of NASA. 
Major breakthroughs are needed to address our society's energy, health, 
transportation, and environment challenges. While NASA investments 
alone will not solve these grand challenges, NASA has proven to have a 
unique ability to attract and motivate many of the country's best young 
minds into educational programs and careers in engineering and science. 
Although it is not possible to predict which advanced aerospace 
concepts will produce.paradigm-shifting results, it is certainly true 
that, in the absence of research on such concepts, the United States 
will not make revolutionary technological advances in aeronautics and 
space and long-term societal goals in these and related areas will 
remain beyond our reach.

                     Biography for Robert D. Braun
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairwoman Giffords. Thank you, Dr. Braun.
    Dr. Colladay.

    STATEMENT OF DR. RAYMOND S. COLLADAY, VICE CHAIR OF THE 
   COMMITTEE ON RATIONALE AND GOALS OF THE U.S. CIVIL SPACE 
  PROGRAM, AERONAUTICS AND SPACE ENGINEERING BOARD, NATIONAL 
                        RESEARCH COUNCIL

    Dr. Colladay. Thank you, Chairwoman Giffords and members of 
the subcommittee. I appreciate the opportunity to appear before 
you today to address a subject that is very important to the 
country and has been particularly in my crosshairs for the last 
3 or 4 years in the National Research Council [NRC] and 
Aeronautics and Space Engineering Board.
    Aerospace is one sector where the U.S. remains preeminent, 
and we have in large part NASA to thank for that, but our 
future leadership depends on continued investment in long-term, 
advanced technology R&D. In our NRC report on America's Future 
in Space we describe the many reasons why space is important to 
the country, including the recognition that space generates 
high-end jobs in science, engineering, and math, supplying the 
workforce for the aerospace sector of our economy that remains 
the envy of the world.
    Beyond that it inspires an interest in technical fields of 
study that is and will continue to be of vital importance to 
our economic competitiveness. Sustaining U.S. leadership in 
space depends on having a sufficiently broad and deep 
technology base that pushes the frontiers of our knowledge, 
leads to innovation and new systems, and challenges 
conventional wisdom with transformational technology.
    When it comes to truly game-changing technical 
breakthroughs, a long-term view is particularly important, and 
such a perspective is almost exclusively the domain of the 
government. Long-term advanced technology R&D does not happen 
in industry because the return on investment is years away, and 
it does not happen in academia without sustained, stable 
government funding.
    With that perspective in mind I would like to make a few 
observations. To fulfill its broad mandate in civil and 
commercial space, NASA should revitalize its advanced 
technology development program as a priority mission area. Its 
technology R&D mission should be independent of the major 
development programs and report to the administrator or some 
equivalent management structure of our government's model to 
give it the stature equal to the agency's other mission areas. 
In our report we refer to a DARPA [Defense Advanced Research 
Projects Agency]-like organization in NASA to convey this spot. 
It should engage the best science and engineering talent in the 
country wherever it resides, in universities, industry, NASA 
centers, and other government laboratories.
    It should be relieved of at least the first order of 
institution requirements to maintain core competencies at the 
ten NASA centers. In order to ensure that the research can draw 
on the best ideas and talent wherever it should reside. It 
should serve not just NASA but civil space customers including 
commercial space and other government agencies or departments 
much like its aeronautics program and its predecessor NACA has 
done for almost 100 years.
    A comprehensive assessment of the current state of the art 
of advanced space technology would be helpful to ensure that 
any new investment in technology R&D would be building on the 
most advanced technology base currently available.
    Whatever governance model NASA chooses for managing a 
technology enterprise, it needs to address technology relevance 
and transition. The ultimate user community determines the 
products of technology R&D remain useful and relevant, and 
technology transition is a process that must be managed with 
all the stakeholders involved.
    In summary, the country expects NASA to be a leader, 
pushing the frontiers of air and space applications and 
missions as called for in the Space Act. But to do so NASA 
needs to replenish the underpinning technology that makes it 
possible.
    That completes my brief summary of my remarks, and I would 
be open, of course, to questions later.
    [The prepared statement of Dr. Colladay follows:]
               Prepared Statement of Raymond S. Colladay
    Madam Chairwoman and members of the Subcommittee, I am pleased to 
appear before you today. My name is Ray Colladay and the personal views 
I express are shaped by my 40 years of experience in aerospace, through 
positions I have held in government, industry, and academia. I chair 
the Aeronautics and Space Engineering Board (ASEB) of the National 
Research Council (NRC) and also served as Vice Chair of the Academy 
funded study on ``AMERICA'S FUTURE IN SPACE: ALIGNING THE CIVIL SPACE 
PROGRAM WITH NATIONAL NEEDS''. Although I have insights into NASA 
acquired through those and other positions, my views are my own and do 
not represent an official position of the NRC.
    With your permission, I would like to submit my prepared testimony 
for the record and summarize my views for you here this morning.
    In the previously mentioned NRC report on ``America's Future In 
Space'', we observed that space has become ubiquitous and permeates 
nearly every aspect of our daily lives. We concluded that if properly 
aligned and coordinated, U.S. civil space can provide technological, 
economic, and societal benefits that contribute to solutions to the 
nation's most pressing problems. The study detailed seven 
recommendations for U.S. leadership in space, but among the most 
actionable of those recommendations--one that we called 
``foundational'' in the sense that it was among those that enabled 
other goals and recommendations to be met--was that NASA needs to 
revitalize its advanced technology development program as a priority 
mission area in the agency.
    Because of budget pressures and institutional priorities, however, 
NASA has largely abandoned its role in supporting the broad portfolio 
of civil space applications, and the space technology base has thus 
been allowed to erode and is now deficient. The former NASA advanced 
technology development program no longer exists. Most of what remained 
was moved to the Constellation Program and has become oriented largely 
to risk reduction supporting the ongoing internal development program. 
Elements of that former advanced technology R&D focused on space 
science missions--primarily advanced instrument development--was also 
moved. Although it continues under the science mission directorate, and 
good work is being done, there is no longer the broader mandate to 
enhance the technology base and explore breakthrough technology that 
could possibly transform future science missions by influencing future 
requirements instead of simply responding to those already established.
    The NRC report observed that future U.S. leadership in space 
requires a foundation of sustained technology advances that can enable 
the development of more capable, reliable, and lower-cost spacecraft 
and launch vehicles to achieve space program goals. A strong advanced 
technology development foundation is needed also to enhance technology 
readiness of new missions, mitigate their technological risks, improve 
the quality of cost estimates, and thereby contribute to better overall 
mission cost management. Space research and development efforts can 
take advantage of advances from other fields--and can contribute back 
to those fields. For example, civil space programs can benefit from and 
contribute to the state of the art in advanced materials, computational 
design and modeling, batteries and other energy storage devices, fuel-
cell and compact nuclear power systems, fault-tolerant electronics and 
software, optics, and robotics. This scientific synergy extends the 
ability to accomplish more capable and dramatic missions in space, as 
well as to contribute to broader national interests driving innovation 
in other areas of terrestrial application. The unique challenges of the 
space environment make demands on technology in ways that often 
accelerate the development pace and advance understanding of the 
foundations of technologies. The responsibility to provide for this 
advanced technology base for civil space activities rests with NASA, in 
partnership with universities, other government agencies, and industry. 
The ``customers'' for the products of technology are NASA, NOAA, 
industry, and military space programs in which multiple-use technology 
is applicable.
    To fulfill NASA's broader mandate, the study concluded that an 
independent advanced technology development effort is required, much 
like that accomplished by DARPA in the DOD, focused not so much on 
technology that today's program managers require, but on what future 
program managers would wish they could have if they knew they needed 
it, or would want if they knew they could have it. This effort should 
engage the best science and engineering talent in the country wherever 
it resides in universities, industry, NASA centers, or other government 
laboratories independent of pressures to sustain competency at the NASA 
centers. A DARPA-like organization established within NASA should 
report to NASA's Administrator, be independent of ongoing NASA 
development programs, and focus on supporting the broad civil space 
portfolio through the competitive funding of world-class technology and 
innovation projects at universities, industry, federally-funded 
research and development centers, government research laboratories, and 
NASA centers. The responsibilities of the organization should be 
similar to those of NASA's aeronautics research in the sense that the 
research activities should be supportive of the needs of the private 
sector as well as the government--a mission well understood and 
supported by NASA going back to its predecessor, NACA.
    Establishing an independent organization focused on broadly 
enhancing the technology base for civil and commercial space does not 
mean the development programs and operational mission areas of NASA do 
not need their own technology research and development resources to 
mature technology ready for transition and for risk reduction. 
Furthermore, a technology management process is needed that draws the 
interests of all stakeholders to common ground to assure the investment 
in technology is relevant to the needs of the eventual users and that a 
plan exists for its transition. This process creates a healthy tension 
between technology push and user pull.
    The DARPA-like reference is not to be taken too literally, since 
what works well in the Department of Defense needs to be adapted to the 
NASA culture. But the reason for the reference is to address the need 
for an advanced technology mission to be given priority, be 
organizationally independent, be authorized to pursue technical 
excellence and research quality wherever it resides relieved of NASA 
institutional requirements, and be encouraged to promote and sponsor 
transformational, game-changing innovation that is not necessarily 
formally tied to existing, well-defined requirements.
    The country expects NASA to be a leader pushing the frontiers of 
air and space applications and missions as called for in the Space Act. 
But to do so, they need to replenish the underpinning technology that 
makes it possible. I believe it is time to make technology research and 
development an explicit priority as part of the agency's broader 
mission.
    Thank you. That completes my prepared remarks and I would be 
pleased to take questions you may have.

                   Biography for Raymond S. Colladay
    RAYMOND S. COLLADAY is a retired corporate officer of the Lockheed 
Martin Corporation and the former President of the Lockheed Martin 
Astronautics company in Denver. Before entering the private sector, he 
held positions of Director of DARPA--the Defense Advanced Research 
Projects Agency of the U.S. Department of Defense and was Associate 
Administrator of NASA where he had senior executive responsibility for 
the agency's aeronautics and space research and technology development 
including operations oversight of Ames, Langley, Dryden, and Glenn 
Research Centers. Dr. Colladay started his aerospace career at NASA 
Glenn Research Center in propulsion R&D before moving to NASA 
Headquarters where he held a number of leadership positions before 
being appointed Associate Administrator of the Office of Aeronautics 
and Space Technology. He has been a member of the Air Force Scientific 
Advisory Board and various Defense Science Board summer studies. 
Currently, he owns an aerospace consulting company, RC Space 
Enterprises, Inc.; teaches leadership and ethics for the Colorado 
School of Mines; and serves on a number of boards, steering committees, 
and commissions. He received his B.S., M.S., and Ph.D. degrees in 
mechanical engineering from Michigan State University and attended the 
Harvard Business School's Advanced Management Program. He is a fellow 
of the AIAA and of the American Astronautical Society. Dr. Colladay is 
Chairman of the Aeronautics and Space Engineering Board (ASEB) of the 
National Academies. He has two daughters and four grandchildren and 
resides in Golden, Colorado with his wife of 44 years.

    Chairwoman Giffords. Thank you, Dr. Colladay.
    Mr. Scolese.

STATEMENT OF MR. CHRISTOPHER SCOLESE, ASSOCIATE ADMINISTRATOR, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Scolese. Chairwoman Giffords, Ranking Member Olson, and 
members of the subcommittee, thank you for the opportunity to 
appear today to discuss NASA's technology development programs.
    NASA has been at the forefront of aeronautics and space 
research since the early 20th century. The complex research 
missions that NASA is asked to do to explore the unknown serve 
as stimulus to innovation. As a result, NASA and its 
predecessor, NACA, traditionally balanced our technology 
activities to meet both the needs of our near-term missions and 
our long-term plans.
    Recent National Academy reviews of NASA innovation and 
technology development endorsed increased emphasis on 
innovative technologies and approaches to achieving broadly 
defined NASA and national goals. These reports and others 
suggested that NASA should increase emphasis first in 
disruptive or game-changing technology, and second in maturing 
technologies for flight.
    In answers to the subcommittee's question about the 
timeframe for technology investment, NASA believes the 
timeframe from these early technology activities should be long 
enough to allow for revolutionary impact, yet not too long so 
as to mask clear applicability to NASA or national needs or in 
the 10 to 20-year timeframe. Managing all of the investment 
areas will require a hybrid of management processes, with 
strong agency-wide planning and coordination. One size does not 
fit all.
    Mission directorate investments focused on mission needs 
will be best managed within those directorates. Early-stage 
innovation, disruptive, and strongly-crossed cutting 
investments are best served by an independent management 
structure still responsive to the needs of the mission.
    With regard to the committee's question on authorization 
legislation directing greater commitment to robust technology 
research and development initiatives, three examples stand out. 
In aeronautics we formulated the new environmentally-
responsible aviation project to develop technologies related to 
improving the air space system to be more environmentally 
friendly. Multiple collaborations are underway with other 
federal agencies and private entities to make use of the space 
station as a national laboratory. And in science the most 
recent annual competitions for instrument technology 
development emphasized cross-cutting technologies.
    The subcommittee asked how NASA develops and infused game-
changing technology solutions without a dedicated long-term 
technology program. NASA does invest in a limited number of 
game-changing technologies through its innovative partnership 
program and within our mission and engineering organizations. 
Examples include optical communications and large pressurized 
composite structures. NASA routinely coordinates with other 
federal agencies to develop technologies and concepts of mutual 
interest.
    The NASA aeronautics research portfolio is strongly aligned 
with the National Aeronautics R&D policy and plan and the high-
level goals of the NRC decadal survey. And as mentioned, the 
Space Station National Laboratory has been made available to 
other U.S. government agencies, academic institutions, private 
firms, and non-profit institutions.
    For example, NASA funded approximately 250 investigations 
related to ISS [International Space Station] life science 
research and exploration, many of which leveraged additional 
funding from the National Science Foundation, the National 
Institute of Health, the Department of Defense, and the 
Department of Energy. Our Nation has made great progress 
throughout its history because of the enormously difficult 
challenges it has embraced. The grand challenge to build an 
intercontinental railway or the Apollo Lunar Program not only 
utilized our best talent but also created new technologies, 
inspired generations to pursue challenging goals, created new 
industries, and ultimately improved our country and the world. 
Similar opportunities are in front of us now, and NASA most 
assuredly can contribute.
    Chairwoman Giffords, I would be happy to respond to any 
questions you or the other members of the subcommittee may 
have.
    [The prepared statement of Mr. Scolese follows:]
               Prepared Statement of Christopher Scolese
    Chairwoman Giffords and other Members of the Subcommittee, thank 
you for the opportunity to appear today to discuss NASA's technology 
development programs. As a research and development Agency, a balanced 
portfolio of R&D at NASA serves the Nation directly and is a catalyst 
for innovation as well. My testimony will address how NASA technology 
is relevant to the Nation and the communities that comprise it, and how 
that might be strengthened.
    In your letter inviting me to testify, you asked that I address a 
number of specific questions related to technology development at NASA. 
My statement will address those questions, as well as provide 
additional context.
    NASA has been at the forefront of aeronautics research and 
development since the early 20th Century, and space technology since 
the mid 20th Century. During that time, NASA and its predecessor 
organization, the National Advisory Committee for Aeronautics (NACA), 
balanced near-term missions and long-term research to benefit the 
Nation and the world. Over the past few years, however, NASA has 
prioritized short-term mission needs over long-term research. Much new 
technology in terms of materials, systems, components, and software 
that benefits our missions as well as others is developed through the 
NASA Mission Directorates, the Innovative Partnerships Program, and the 
Centers. The NASA mission focus also serves technology development by 
focusing activities on technologies needed to address current and 
future problems as well as providing the test bed for demonstrating 
these new technologies.

NASA Response to Recent External Reviews

    Several recent external reviews have addressed the issues of 
innovation and technology development at NASA, with a strikingly common 
set of themes. Although the final report is still pending, the Summary 
Report of the Review of U.S. Human Space Flight Plans Committee 
strongly endorsed increased focus on innovative technologies and 
approaches to achieving broadly defined NASA and national goals. This 
technology and innovation focus was included in all new program options 
suggested by the Committee in its Summary Report. The recently released 
National Research Council (NRC) report, ``America's Future in Space,'' 
specifically calls for NASA to create a capability to develop game 
changing approaches to National challenges. This recommendation is 
similar to one made by the Aldridge commission in 2004. Finally, the 
recent NRC report ``Fostering Visions for the Future: A Review of the 
NASA Institute for Advanced Concepts'' is also highly relevant. It 
suggests re-creating an early stage innovation engine like the NASA 
Institute for Advanced Concepts (NIAC). These NRC reports especially 
emphasize the need for some organizational independence from the 
mission-focused parts of the agency in order to provide stability to 
the investment and a more risk-tolerant environment to foster 
innovation. They recommend a broad reach, across disciplines and 
organizations, to ensure the best ideas are brought forth and 
supported. All suggest that failure to invest in technology and 
innovation puts the Agency's future viability at great risk.
    In recognition of the need to rebalance near-term mission and far-
term technology and innovation investments, the Agency chartered an 
internal study team to investigate the barriers to NASA innovation and 
make suggestions for approaches to address these barriers. The study 
team had participation from across NASA Mission Directorates, Centers, 
and Offices.
    The barriers to innovation identified by our internal study team 
agree with many of the findings of the external committee reports with 
respect to both the overall shortfall and the focus. NASA's investments 
in innovation and technology have been focused on the near term, 
especially in the space-related disciplines. In addition, the Agency 
could do a better job in many areas of engaging partners from across 
academia, industry and other Government agencies in its technology 
development efforts. This would allow both the most innovative ideas to 
be brought forward, and the broadest application of NASA-supported 
capabilities to address broader National needs in areas of high 
priority to the Nation.
    Also recognized in multiple studies is the importance of 
capabilities for taking technology from the lab bench to demonstration 
for flight use. This is an area which has traditionally been left to 
flight projects which typically cannot assume the risk and/or cost for 
technologies that are not enabling the mission, and requires a 
diversity of approaches to ensure that the needs of the ultimate user 
community are fully addressed. Driven by the specifics of the 
technology and the target use, successful approaches can be as simple 
as environmental and life testing or as complex as demonstration 
packages on host missions or dedicated flight demonstrations.
    NASA is planning to use an integrated portfolio management 
approach, balancing needs from across the Agency, balancing near-term 
and long-term investments, and ensuring that resources are 
appropriately leveraged across the various mission areas to secure the 
maximum impact for our investments. NASA will examine reward structures 
and culture to encourage more risk-taking in innovation activities. 
Although our ``failure is not an option'' ethic is essential in the 
spaceflight arena where lives are at stake, innovation demands pushing 
the envelope, occasionally failing, and learning from those failures to 
drive game-changing solutions to NASA's grand challenges.

NASA Missions Require Technology to Address Extreme Conditions

    NASA's missions require technology beyond state-of-the-art, where 
hardware and systems meet the extreme conditions of space and high-
performance aeronautics. The environments in which humans, spacecraft, 
and equipment must work pose unique challenges, prompting development 
of unique capabilities.
    Science missions face a variety of extreme environments, with over 
90 spacecraft operating or planned to operate throughout the solar 
system and beyond. For example, the Juno spacecraft being prepared for 
launch in 2011 must survive a five-year journey to Jupiter and operate 
for about a year on solar power in an area where there is 25 times less 
sunlight than at Earth and at temperatures that may approach ^275 
degrees Fahrenheit, requiring some of the most hardy and efficient 
solar arrays ever built. The James Webb Space Telescope, a 6.5-meter 
(21 feet) space telescope, will need to operate at about 35 degrees 
above absolute zero or ^396 degrees Fahrenheit. Another example is 
Solar Probe Plus, which is planned to launch no later than 2018 and 
will operate just 3.7 million miles above the Sun's ``surface,'' some 
seven times closer than any spacecraft has come before. At its closest 
approach, Solar Probe Plus' shield must withstand temperatures up to 
2,600 degrees Fahrenheit, while allowing the payload of science 
instruments to operate at or near room temperature.
    While more protected inside the Earth's magnetic field, NASA and 
its partners must enable humans to live and conduct experiments in 
space on the International Space Station--a 500 metric ton, football-
field sized, permanently crewed, full-service space platform operating 
at an altitude of 350 kilometers in a 51.6 degree inclination to the 
Earth's equator. Research for flight beyond low-Earth orbit must enable 
long-term human health in micro-gravity, under varying radiation 
conditions, with remote medical assistance. Lastly, although operating 
on Earth, aeronautics research must make air vehicle concepts, such as 
vertical lift and supersonic flight practical for commercial use, and 
enable significant increases in air transportation capacity while still 
protecting the environment, ensuring safety, dramatically improving 
efficiency, and revolutionizing the flow of air traffic.

Relevance of Mission Technology to other Sectors

    NASA technology development over the last decade has by and large 
focused on the needs of the missions. This situation raised the 
importance of infusion into NASA missions of technology developed 
jointly in partnerships with industry, academia, other Federal 
agencies, and other external entities. Interestingly, the advanced 
nature of NASA technology, combined with the emphasis on partnering, 
served to increase the likelihood of additional relevance to other 
market sectors and communities.
    As an example, the Science Mission Directorate (SMD) partners with 
the Small Business Innovative Research (SBIR) program to develop key 
technologies for the Mars Science Laboratory (MSL). SMD worked with 
Microwave Power Technology of Campbell, California, to develop a small-
format Carbon Nanotube Field Emission cathode (CNTFE) X-ray tube for 
the Chemistry & Mineralogy instrument on MSL. While a tungsten cathode 
was ultimately baselined for the flight tube, the form, fit and 
function of the flight tube was derived from this SBIR project.
    The Innovative Partnerships Program works through its offices at 
all ten field centers to facilitate the transfer of Agency-developed 
technologies for commercial application and other public benefits. 
Licensing, together with a wide portfolio of innovative partnering 
mechanisms, results in commercial products that contribute to the 
development of services and technologies in health and medicine, 
transportation, public safety, consumer goods, agriculture, 
environmental resources, computer technology, manufacturing, and other 
key industrial sectors. Each year, NASA documents 40-50 of the best 
current examples of how mission technology has yielded public benefit 
in the annual Spinoff publication.

Game-Changing or Paradigm Shifting Solutions

    Due to the near-term program focus of NASA's current technology 
programs, the likelihood of developing and infusing mission ``game-
changing'' technology is reduced. Still, with clear challenges on the 
demand-side, significant emphasis on partnering, and continuing 
programs with universities, such paradigm-shifting solutions do 
nonetheless occur, often with additional applicability outside of NASA.
    NASA's Exploration Systems Mission Directorate (ESMD) is developing 
very high-performance lithium ion battery cells that significantly 
exceed current state-of-the-art, and are highly reliable, self-
contained Proton Exchange Membrane (PEM) regenerative fuel cells. 
Current automotive fuel cells are not regenerative and consume oxygen 
from the atmosphere plus hydrogen from onboard storage tanks to 
generate electricity. The PEM regenerative cell uses electricity to 
convert water into hydrogen and oxygen stored in tanks that can later 
be reconverted back into electricity. In space applications, such 
advances in energy storage systems would be useful to human explorers 
on a terrestrial surface where there is a decreased ability to create 
solar energy. This technology also could be useful to farms and 
businesses that need large kilowatt power generated during off-peak 
hours on the grid or from other sources.
    The NASA partnership with the Defense Advanced Research Projects 
Agency (DARPA), industry, universities, the Internet Research Task 
Force and several international space agencies has created the new 
technology of ``Delay Tolerant Networking'' (DTN), which enables the 
extension of the Earth's Internet to sustain communications over 
interplanetary distances--for example to and from the Moon and Mars. 
This technology has been spun-off to enable many new terrestrial 
applications where the Internet can be extended into highly stressed 
communications environments, such as remote villages, battery-powered 
sensor webs and undersea communications. Military applications of DTN 
are substantial, allowing the dissemination of critical battlefield 
situational awareness information into areas where communications 
networks are sparse and subject to a high degree of disruption.
    NASA, in partnership with the Air Force Research Lab and Boeing, 
successfully completed flight experiments of the X-48B Blended Wing 
Body (BWB) advanced aircraft at the NASA Dryden Flight Research Center. 
The BWB is a hybrid configuration combining the best attributes of a 
conventional ``tube-and-wing'' aircraft with a flying wing. It has the 
potential to meet expected future Next Generation Air Transportation 
System requirements for low noise, low emissions, and high efficiency. 
It is the first time a dynamically scaled BWB was flown. The 
experiments demonstrated the basic flying qualities of the X-48B and 
the effectiveness of the on-board flight control system. NASA is 
continuing to research the BWB concept along with other unique 
configurations in order to enable future vehicles that profoundly 
improve the efficiency and capabilities of air transportation.
    Other examples include optical communications, in-space propulsion, 
and tools and techniques such as modeling and simulation for Earth 
science, or shell buckling test facility and analysis for significantly 
reduced weight and cost of next-generation launch vehicles. A program 
similar to the NASA Institute for Advanced Concepts (MIAC) would be 
valuable in identifying other game changing technologies.

Technology Innovation and Leveraging

    The NASA Innovation Partnerships Program (IPP) continues to pioneer 
the use of non-traditional approaches such as the Centennial Challenges 
Program which uses incentive prizes to spark innovation and drive 
technology to meet the Agency's high-performance technology challenges. 
A key result of the Centennial Challenges competitions is the 
demonstration of dramatic efficiencies in the research and development 
process when compared with typical industry practices.
    The Lunar Lander Challenge requires that teams build and fly a 
reusable rocket-powered vehicle that can mimic a robotic flight to and 
from the surface of the moon, but in an Earth-based demonstration. 
Teams must design, build and test these vehicles without any government 
support or funding. The return on investment with an incentive prize 
can be enormous, and this contest has yielded working prototypes from 
multiple sources. Two teams have successfully flown vehicles and 
qualified for prizes and others are planning to fly later this month. 
Additional NASA partnerships and commercial ventures have resulted from 
this incentive prize.
    Another example is the Regolith Excavation Challenge which recently 
took place at Moffett Field in California. The goal was to use either a 
teleoperated or autonomous device to excavate at least 150 kilograms of 
simulated lunar regolith within thirty minutes. Nineteen teams competed 
with working robots, and three teams met the minimum requirements and 
claimed prize money, with the winning team from Worcester Polytechnic 
Institute excavating over 500 kilograms. The Regolith Excavation 
Challenge is important because future lunar astronauts may ``live off 
the land'' by excavating lunar regolith and extracting useful materials 
from it, such as oxygen and even recently discovered water molecules 
that seem to be bound within lunar topsoil. The competing teams 
advanced the technology necessary for this kind of operation without a 
lot of investment from NASA.
    Additionally, the NASA IPP Partnership Seed Fund enhances the 
Agency's ability to meet mission technology goals by providing seed 
funding to overcome technical barriers with cost-shared, joint-
development partnerships between non-NASA partners, NASA Programs and 
Projects and NASA Centers. Seed Fund projects have highly leveraged 
NASA's investment and resulted in many important technologies 
including: two different lunar tire designs from partnerships with 
Michelin and Goodyear; a prototype inflatable lunar habitat that was 
field tested in Antarctica in partnership with the National Science 
Foundation and ILC Dover; and testing of alternative fuels for aircraft 
engines in partnership with Pratt & Whitney and the Air Force Research 
Laboratory.

Coordination and Collaboration with Partners

    NASA and its partners leverage mutual interest in many technologies 
across the missions. For example, ESMD has a research portfolio related 
to its Exploration Technology Development Program and Human Research 
Program that will benefit future space explorers as well as other 
organizations on Earth. NASA is funding approximately 250 
investigations related to ISS research and exploration that include 
approximately 80 active flight investigations. Investigators in the 
life sciences do not depend solely on NASA for the totality of their 
research funding. Most NASA funded investigators receive funding from 
other agencies as well, including the National Science Foundation, the 
National Institute of Health, the Department of Defense, and the 
Department of Energy for related research efforts. In fact, NASA often 
works directly with these agencies through working groups and Space Act 
Agreements. The ESMD has nearly 100 agreements in the form of Memoranda 
of Agreement and Understanding with other Federal agencies and 
international partners. The synergy between these Federal agencies is 
clear and coordinated.
    In FY 2008, about half of SMD's investment in technology programs 
was in mission-specific technology developments tied to NASA flight 
missions. The remainder was for Principal Investigator-led research 
investigations, suborbital research programs (which are often used to 
test new technologies and instruments in suborbital context before they 
are manifested on space-borne missions), and a dedicated Earth science 
technology program to enable the highest priority missions called for 
in the National Research Council Earth Science Decadal Survey. These 
latter investments supported 21 instrument incubation projects that are 
broadly aimed at addressing science measurement objectives put forward 
in the Earth Science Decadal Survey. These new projects include a 
carbon dioxide (CO<INF>2</INF>) laser sounder for the Active Sensing of 
CO<INF>2</INF> Emission over Nights, Days, and Seasons (ASENDS) mission 
(a Tier 2 mission in the decadal survey), a multi-parameter atmospheric 
profiling radar for the Aerosol/Cloud/Ecocsystems (ACE) mission (a Tier 
2 mission) and a laser ranging frequency stabilization subsystem for 
the follow-on Gravity Recovery and Climate Experiment (GRACE-II) 
mission (a Tier 3 mission). These Earth Science measurements will 
enable us to better understand how the Earth's climate, water cycle, 
carbon cycle, and living beings interact and how they impact society.
    NASA also works with industry partners who can adapt these 
technologies to serve broader societal needs. Perhaps the world's most 
famous telescope, the Hubble Space Telescope has given us more than 
close-up views of our galaxy; it has served as a technological engine 
for various industries. Technologies developed for Hubble have enabled 
surgeons to perform micro-invasive arthroscopic surgery with increased 
precision, made breast biopsies less invasive and more accurate using 
imaging technology, and led to optimized semiconductor manufacturing 
through precision optics and advanced scheduling software.
    As NASA transitions the ISS from the assembly phase to the full 
utilization phase, the ISS will be operated as a U.S. National 
Laboratory and thus made available to other U.S. government agencies, 
academic institutions, private firms and non-profit organizations. At 
that stage, the research benefits will extend beyond NASA and begin 
accruing in areas related to U.S. national needs in such areas as 
improvement in human health and energy systems research.
    Improvement in human health is the mission of the National 
Institute of Health (NIH). The NIH entered into a Memorandum of 
Understanding with NASA to use the ISS for research. In Spring 2009, 
NTH issued a three-year rolling announcement for research grants in 
areas including: (I) cancer; (2) heart, lung and blood disorders; (3) 
aging; (4) arthritis and musculoskeletal and skin diseases; (5) 
biomedical imaging and bioengineering; (6) child health and human 
development; and, (7) neurological disorders and stroke. Research is 
scheduled to begin by the end of 2010.
    In preparation for full utilization phase of the Space Station, 
NASA has entered into agreements with private firms such as 
Astrogenetix, Inc. as pathfinders for the future. Based on basic 
research funded by NASA under prior grants, the company is now pursing 
vaccine development under microgravity conditions. A vaccine target for 
salmonella-induced food poisoning was discovered in 2009, and the 
company is seeking investigational new drug status from the U.S. Food 
and Drug Administration. Follow-on experiments are underway on a 
variety of bacterial pathogens, including Methicillin Resistant 
Staphylococcus Aureas (MRSA), which is responsible for, almost 20,000 
human deaths per year.
    The NASA Aeronautics Research Mission Directorate (ARMD) has a 
research portfolio, predominately focused on long-term foundational 
research, which is both comprehensive and coordinated in order to make 
substantial improvements to the future air transportation system. There 
is strong alignment of NASA's aeronautics research portfolio with the 
National Aeronautics Research and Development Policy and Plan and the 
high level goals of the National Research Council's Decadal Survey on 
Civil Aeronautics (2006), which identify short and long-term strategic 
aeronautics research and technology goals for our Nation. A good 
example is the development of new vehicle concepts that are much more 
efficient and exhibit dramatic reductions of emissions and noise 
impacts. NASA fundamental research has paved the way for concepts such 
as hybrid wing body vehicles that are quite different from the ``tube 
and wing'' aircraft that are familiar today. Research includes novel 
propulsion systems and support for the creation of new alternative 
fuels that show promise for even more improved environmentally friendly 
performance.
    Similar to the other Mission Directorates, ARMD utilizes a variety 
of mechanisms to engage academia and industry, including industry 
working groups and technical interchange meetings at the program and 
project level, Space Act Agreements for cooperative partnerships with 
industry, and the NASA Research Announcement (NRA) process that 
provides full and open competition for the best and most promising 
research ideas. Cooperative partnerships with industry consortia result 
in significant leveraging of resources for all partners and can provide 
opportunities to test the value of component-technology advances in 
full system-level contexts. All research results, whether generated by 
NASA internally or by its partners through the NRA, are openly 
disseminated through archival publications and conference proceedings 
as well as NASA publications to benefit the broad U.S. aeronautics 
community while ensuring the dissemination policy is consistent with 
National security and foreign policy guidelines.
    NASA aeronautics research is conducted in a highly collaborative 
environment among Federal agencies. The National Aeronautics Research 
and Development Policy and Plan provides the strategic framework that 
facilitates coordination among the Federal agencies. NASA builds upon 
this framework to coordinate with other Agencies when appropriate. For 
example, to facilitate the transition of advanced ideas and 
technologies into the aircraft fleet, NASA is partnering with the 
Federal Aviation Administration's Continuous Low Emissions, Energy and 
Noise (CLEEN) program to guide efforts to mature technologies that have 
already shown promise to the point where they can be adopted by the 
current and future aircraft fleet. Additionally, NASA and the U.S. Air 
Force have established an Executive Research Council that meets at 
least twice a year to ensure close coordination and collaboration. 
Another example of a significant partnership effort involving NASA that 
spans multiple government and commercial organizations is the 
Commercial Aviation Safety Team, which was recently honored with the 
prestigious Collier Trophy for reducing fatal air transport accidents 
by 83 percent in a decade.

Response to NASA Authorization Act Direction Related to Technology 
                    Development

    With regard to NASA's response to the provisions in authorization 
legislation directing greater commitment to robust technology research 
and development initiatives in aeronautics, exploration, and space and 
Earth sciences, several examples stand out.
    NASA has responded to authorization language pertaining to further 
investment in the development of technologies related to 
environmentally friendly aircraft by formulating the new 
Environmentally Responsible Aviation Project under the new Integrated 
Systems Research Program in order to build on recent developments in 
the existing research programs. This new effort will include further 
technology advancement and research in conjunction with academic and 
commercial partners. Work is also ongoing to ensure that new vehicles 
are accurately modeled in air traffic management simulations, but 
further research can improve the fidelity of these simulations to 
facilitate the development of new procedures, processes and techniques 
for managing air traffic.
    While NASA-sponsored investigations on the Space Station are 
currently focused largely on enabling future long-duration human space 
exploration missions, Congress designated the U.S. portion of the Space 
Station as a National Laboratory making its facilities available to 
other federal agencies and private entities. These collaborations are 
well underway.
    In addition to non-mission focused technology activities previously 
mentioned, NASA's Science program continues to emphasize the role of 
cross-cutting technologies in the annual competitions for its major 
technology development programs such as the Planetary Instrument 
Definition and Development Program and the Earth Science Instrument 
Incubator Program. We have already conducted a review to determine the 
highest-priority, cross-cutting technologies, and we will use those 
priorities in making future selection decisions for technologies. Key 
cross-cutting technologies of interest to science include sensors 
(e.g., Light Detection and Ranging LIDARs, long-life lasers, in situ 
sensors and tools), information systems (e.g., data processing, large-
scale numerical simulation/modeling, and data management, mining and 
visualization tools), platforms (e.g., photovoltaic and radioisotope 
power systems, chemical and electrical propulsion, radiation-hardened 
computer processors, low power/low mass application-specific integrated 
circuits), suborbital technologies (including sounding rockets, 
balloons, and unmanned aircraft systems), large lightweight deployable 
structures (especially telescopes and antennas), and integrated 
modeling techniques (e.g., structural, optical, thermal, and instrument 
models that share the same databases).

Conclusion

    The National Academy of Sciences issued a warning in its report 
Rising Above the Gathering Storm: ``The United States faces an enormous 
challenge because of the disparity it faces in labor costs. Science and 
technology provide the opportunity to overcome that disparity by 
creating scientists and engineers with the ability to create entire new 
industries--much as has been done in the past.'' The Academy 
recommended increasing America's talent pool by vastly improving K-12 
mathematics and science education; strengthening the Nation's 
commitment to long-term basic research; developing top students, 
scientists, and engineers; and, ensuring that the United States is the 
premier nation in the world for innovation.
    Most assuredly, NASA can contribute. As the Agency pursues 
demanding missions in Earth science and climate research, human and 
robotic exploration, astronomy and astrophysics, solar physics, and 
aeronautics, NASA must answer several fundamental questions: Is there 
water on Mars? Can humans live for extended periods in space, and if so 
can they live on the resources they find? What can we do to inform 
choices on mitigating and adapting to global change? Are there other 
solar systems like ours in the universe? As noted earlier, the missions 
created to answer those questions utilize specialized hardware that 
must endure extreme environmental conditions and demand functionality 
beyond that required for Earth-based applications.
    The NASA mission focus and ability to develop technology from 
infancy to application provides an extraordinary forcing function for 
innovation. The Agency's technology challenges are multidimensional, 
requiring multidisciplinary solutions. Shared with the academic 
community, these challenges help prepare graduate students by enabling 
them to work on real-world challenges early in their careers. NASA 
technology lends itself to practical collaboration across government, 
academia, and industry. In addition, technology development linked to 
exciting NASA missions can provide a low risk avenue to encourage K-12 
students. Finally, most NASA projects require large-scale system 
engineering. Addressing challenges with these characteristics has a 
powerful galvanizing effect on educational institutions and students, 
and thus on the aerospace industry, other industries, and on NASA.
    Our Nation has made great progress throughout its history because 
of the enormously difficult challenges it has encountered. The grand 
challenge to build an intercontinental railway, or to land a man on the 
Moon and return him safely to the Earth, not only utilized our best 
talent, but also created new technologies, inspired generations to 
pursue challenging goals, created new industries, and ultimately 
improved our country and the world. Similar opportunities are in front 
of us now.
    Chairwoman Giffords, I would be happy to respond to any questions 
you or the other Members of the Subcommittee may have.

    Chairwoman Giffords. Thank you. At this point we are going 
to start our first round of questions, and the Chair recognizes 
herself for 5 minutes.
    I would like to start with Mr. Scolese. You have heard 
testimony from the other panelists about some--the 
recommendations of why this is important and the suggestions 
that this really matters, and it needs to be reinstituted. We 
have heard about the importance of advanced technology 
development at NASA, but could you speak more specifically 
about the attributes of such a program? How would NASA 
structure a short-term, a mid-term, and a long-range term 
program in terms of the needs of the agency and its various 
mission directorates?
    And also, should we expect to see any changes in NASA's 
technology development programs in the fiscal year 2011 budget?

                           Program Attributes

    Mr. Scolese. Certainly. In terms of the short-term 
technologies and even the mid-term technologies we have our 
programs largely aligned with our missions. So they tend to 
stay within the mission directorates, and those are moving 
along fairly well.
    As an example, in the science mission directorate we invest 
about 10 percent of their budget in technology development. 
That is where we go off and look at the instruments that we may 
need in the future or entry descent and landing as Dr. Braun 
mentioned earlier for going to Mars with different payloads. So 
for those, as I mentioned in my testimony, we would expect 
those to stay within the mission directorates.
    The longer-term technologies, typically we would like to 
look at things that are cross-cutting, that could affect more 
than one mission area; aeronautics, science, or human 
spaceflight programs. Those don't tend to fit well within a 
mission directorate, and we would think that if we went off to 
do those, we would take a step back and look at a more 
coordinated process across our directorates. Whether that would 
be as Dr. Colladay mentioned an entity that reported to the 
administrator or it would be put into some other organization, 
I couldn't say at this time.
    And to your last question or last part of the question, 
earlier this year we recognized and we recognized before that 
our investments in technology have changed. They have changed 
their focus to a more near-term focus as opposed to the longer-
term focus for a variety of reasons. So we asked a team to go 
off and look at what we could do.
    So, yes, I will, you will--can expect to see some changes 
in how NASA does technology in the future.
    Chairwoman Giffords. The next question I have is something 
that is based on what our recent new administrator said to the 
general public, and he said that the President tasked him to 
make NASA inspire young people again, and in that same vein 
NRC's report on the NIAC basically went on to talk about that 
role of NASA's importance for inspiring the public with a 
spirit of discovery and exploration.
    So I guess I would like to start with Dr. Braun. If you 
could elaborate on your committee's work in terms of what you 
regard as inspirational, educational, the contributions that 
NIAC has made and then turning to Mr. Scolese, I would like to 
hear some of the elements in this technology program that we 
could pull that in, and of course, from Dr. Colladay as well.

                   Public Relations/Student Relations

    Mr. Braun. Okay. In addition to the work that was funded 
directly by NIAC with the external innovators, NIAC did have a 
student fellows program and also was very visible in a public 
outreach campaign. So to address your question directly I think 
our committee felt that NIAC did an excellent job of actually 
earning positive public support for NASA through its actions 
and of inspiring students actually around the country to be a 
little more creative and to think outside the box. So that was 
certainly true.
    In--if I could add one other point, in my discussions with 
students on campus, you know, that occurs most days, you know, 
when I am not here in Washington, DC, students are really 
interested in the future much farther beyond say the next 5 or 
10 years in general. You know, they are people that are about 
to enter the workforce, and they are going to be in the 
workforce for 20 to 40 years, and so visionary, far-reaching 
technology programs, innovation and creativity are things that 
pull them into engineering and science in general. Thank you.
    Chairwoman Giffords. Mr. Scolese.
    Mr. Scolese. Well, I would agree with all of that. 
Engineers and scientists want to think about the future, and 
they want to work on things for the future. So our missions 
automatically inspire people to want to go off and do that.
    But specifically some things that we are doing today to 
help work that is we have a suborbital program with sounding 
rockets and balloons as an example. It is not strictly the 
technology part, but it gives students and graduate students, 
undergraduate students an opportunity to develop and 
experiment, test it in a real flight-type environment where 
there isn't the overwhelming pressure to succeed as you would 
have with a mission. So we find those opportunities and in any 
technology program we would do, we want to engage, and in fact, 
any technology program we do today we do engage universities as 
well as industry, but in particular the universities to get the 
graduate students and then undergraduate students engaged in 
these activities. And in some cases even high school students.
    Chairwoman Giffords. Dr. Colladay.
    Mr. Colladay. NASA has a mission that in itself excites 
people, and so in many respects you have one of the easiest 
jobs I can imagine to generate the kind of enthusiasm that will 
lead people into engineering careers and science careers.
    There is two things that--and it starts very early. There 
is two--at a young age. There is two things that seem to be in 
our genetic wiring. Kids love dinosaurs, and they love space, 
and NASA can really capture the interest in space because they 
have real interesting problems to solve. And in many respects 
defining those problems and then translating them into 
technical solutions is what engineering students and scientists 
like to wrestle with.
    So I think the mission is there to generate that kind of 
excitement.
    Chairwoman Giffords. Thank you, Dr. Colladay.
    The Chair is going to recognize Mr. Olson.
    Mr. Olson. Thank you, Madam Chairwoman. I have a question 
for Dr. Braun and Dr. Colladay.
    Your report provides good insight into the demise of NIAC, 
but given its unique roll and relatively small cost why was 
NASA so indifferent about NIAC's fortunes? Why was it allowed 
to close? Where were its advocates, and why did they fail?

                            Collapse of NIAC

    Mr. Braun. Well, I can only give you my opinion on that, 
and I am happy to do so. I, of course, wasn't in NASA at the 
time. What happened with the NIAC is that it was envisioned 
originally as a cross-cutting program outside the mission 
directorates that was seeking advanced technology and infusing 
them into NASA's missions.
    With the dissolution of the aerospace technology enterprise 
at NASA, the former Code R in 2004, NIAC got moved into the 
exploration systems mission directorate, and shortly after that 
with the budget crunch if you, you know, to use my words, with 
the budget crunch to get the Constellation program going and 
getting humans back to the moon, a pretty strong effort was 
made throughout the agency to squeeze down and remove many of 
the technology development programs. Not just the NIAC. 
Nobody--I am fairly certain that nobody within NASA went 
directly after the little $4 million NIAC Program, but in 
sweeping out a lot of these larger technology programs, NIAC 
was also removed in 2007.
    Mr. Olson. Dr. Colladay.
    Mr. Colladay. Well, I would agree with that observation. I 
would also say that protecting the resources for really 
innovative, far-term, advanced technology requires a champion. 
It requires a person that has enough stature at the table in 
the budget battles that come every year to defend that 
investment, because at the end of the day it is a good-faith 
investment in the future. And if that advocate, that champion 
for advanced technology isn't at the table, it is pretty hard 
in budget crunch time with scarce resources as NASA has faced 
over the recent years to defend a program, even though it is 
only $4 million. It is--every little bit is important.
    Mr. Olson. Thank you for those answers, and I have a 
question for you, Mr. Scolese. In your statement you highlight 
a number of technology development activities ongoing across 
the agency's mission directorate, but I notice there were no 
mention of Ares, Orion, or Constellation. And for the record 
could you describe two or three technology development 
activities associated with our future manned spaceflight 
program?

                           Manned Spaceflight

    Mr. Scolese. Certainly. There is actually a number of 
activities that are in what we term our Exploration Systems 
Mission Directorate, which is where the Constellation Program 
is with Orion and Ares and the ground systems that support 
that. Some of the far-reaching technologies that we are looking 
at there that can help not only human spaceflight but others, 
one is a composite crew module, and that may sound a little 
different, but most everything that we have manufactured for 
human spaceflight has been made out of metallics; aluminum or 
steel of one type or another. And there is certain benefits if 
we could go off and use structures that are made out of 
essentially plastics.
    However, we have been using them on the science missions 
for many years because they give us certain benefits that allow 
us to make those missions much better, but we haven't applied 
them broadly to large structures because we haven't been able 
to find any theory that tells us how to build them.
    So we decided that we needed to go off and understand that 
technology and develop that technology and chose to build a 
crew module very similar to Orion out of a composite structure. 
We worked that with all of our NASA centers basically because 
our science centers have lots of experience with composites. 
Our Langley Research Center has worked on composite structures 
for aircraft elements, and Marshall Spaceflight Center has 
worked on composites for rocket parts. And you can go around to 
all of our various centers that have analytical techniques, but 
we needed to be able to go off and build it.
    So we went off and worked with industry and academia to 
build it, test it. It has a pressurized system, and we are in 
the process now of testing it. The good news is is we are 
developing a theory. Our tests are now going to see how well we 
did with that theory. The good news is so far with the initial 
tests that we have done, theory and application are turning out 
to match very closely, so that is very good. The applications 
are probably not for the crew module, probably not for Orion, 
but downstream if we went to send people to Mars or the moon or 
libration points, wherever it may be, will allow us to make 
structures that are more efficient, perhaps lighter, and better 
understood.
    It has commercial applications. Already the aircraft 
industry is looking at what we are doing and talking about 
large fuselage as opposed to just segments of the fuselage or 
the wings. So it has proven to have a very--it is a very good 
technology.
    Another area to follow on with what Dr. Braun said, is 
going to Mars. Ultimately we want to send humans to Mars, and 
as Dr. Braun said, all of our technology is based on the 1970s 
when we went off and did Viking. The Mars Science Lab is the 
largest thing we are going to land on Mars, and we are 
struggling with the fundamental physics of being able to get 
that done.
    So what we have done partnering with all of our mission 
directorates is we have instrumented that spacecraft so that we 
can get some really good data finally on the atmospheric 
profile and what actually happens as we are descending through 
that--the Martian atmosphere.
    In addition, if you look at MSL, it is about the same size 
as the Orion capsule. So we are also going to use that in 
helping to improve the design of the Orion capsule as well.
    So those are just two examples of what we are doing in or 
associated with the Constellation program.
    Mr. Olson. Thanks for that answer. I mean, those are pretty 
impressive examples of what we are doing with that technology.
    And finally I would just like to close, one question for 
all of you. What percentage of the NASA budget should be 
devoted to non-mission-oriented technology development in your 
opinion? Humble opinions?

                           Non-Mission Budget

    Mr. Colladay. Somehow I knew that question would come. I 
have said in a number of different forums that I thought an 
advanced high-tech agency or any organization with a mission 
like NASA should fence or protect resources at the level of 
about 10 percent of the total budget for really advanced, 
innovative technology development.
    Now, the fuzziness comes in how much of that is really 
near-term, mid-term, and far-term, because technology 
development needs to be mission specific in the mission 
directorates as well. But I would say a good starting point in 
answering that question would be 10 percent of the budget, at 
least building to that, and that includes aeronautics, too. I 
mean, I would put the space technology and aeronautics together 
at 10 percent.
    Mr. Olson. Thank you, Dr. Colladay. Dr. Braun.
    Mr. Braun. Yeah. Well, I would--I agree completely with Dr. 
Colladay's assessment. In my written testimony I suggested that 
at least 10 percent of NASA's budget should support 
technologies required to dramatically advance entirely new 
aeronautics and space endeavors. And so the way I view this 
question is that is 10 percent above and beyond mission-focused 
technologies. NASA obviously needs to be doing mission-focused 
technology development work. The examples that Mr. Scolese gave 
are excellent examples of that, and that work needs to 
continue.
    But in addition to that work, which could be jointly funded 
by mission directorates and a cross-cutting technology 
enterprise, in addition to that work something like 10 percent 
of the agency's budget devoted to new endeavors in aeronautics 
and space is about right to an agency whose goal is to push the 
frontier and to be looking at the boundaries. Thank you.
    Mr. Olson. Thank you for that answer, and Mr. Scolese, if 
you feel comfortable answering the question, we would love to 
hear it.
    Mr. Scolese. Well, you know there are certain questions 
that I have to kind of dance around a little. This is one of 
them. Clearly it is hard to disagree with what was said. A 
research organization like NASA is--does need to invest, and we 
do, and we have to determine those priorities in conjunction 
with you and the Administration.
    What I can say, though, on the very positive side is that 
in our aeronautics area most of that budget is research and 
development. You can see that sort of with that figure that was 
shown earlier.
    In our other areas we have to go off and look, and the 
pressures of the mission often do cause some issues, but that 
is exactly why we went off earlier this year to start looking 
at what we can do, how can we organize, and how can we, you 
know, find a better way to go off and advance technologies.
    Mr. Olson. Thank you very much for your answers, and Mr. 
Chairman, I yield back my time.
    Mr. Griffith. [Presiding] Thank you, Ranking Member Olson, 
and Congresswoman Fudge, would you have some questions?
    Ms. Fudge. Thank you, Mr. Chairman. I thank all of you for 
being here today. I just have a couple of questions.
    The first one for any of the panel members. NASA's funding 
for research and technology for spacecraft systems for future 
missions has been significantly reduced over more than a 
decade. A summary report of the review of U.S. Human Space 
Flight Plans Committee stated that investment in a well-
designed and adequately-funded space technology program is 
critical to enable progress in exploration. NASA's science 
mission also requires significant advancements in spacecraft 
technology to enable exciting new missions.
    What increases in funding in critical areas such as power, 
propulsion, communication, and other technologies is needed to 
assure that these technologies are developed to support future 
missions? And in conjunction with that, how will the research 
and technology funding be managed and dispersed?
    Mr. Scolese. Well, I guess I got voted. All of those things 
are critical for both, as you said, both the human spaceflight 
and the robotics missions. It is hard to say how much and when. 
I can tell you that we are looking at all of those areas today 
and perhaps give some examples in--of what we are doing, and 
that should probably lead to areas of further investigation.
    Clearly in communications we are very limited. We are 
limited in terrestrial communications because the bandwidth is 
being used for other services. So we are moving towards optical 
communications, and in space that is pretty easy. You don't 
have to worry about an atmosphere, you don't have to worry 
about clouds. So we are making an investment in optical 
communications that will allow us to get more data back in a 
way that will be more stimulating to the public for sure but 
also get more for the scientific community.
    Today at Mars we have a fleet of satellites in orbit around 
Mars and on the surface, and we cannot bring back all the data 
because we just do not have enough bandwidth with the RF, with 
the radio frequency links that we have. So this is an area that 
we are spending a lot of time in.
    Propulsion. If we are ever going to get humans to Mars, if 
we are ever going to get our probes to the far reaches of the 
solar system efficiently, we need better propulsion techniques. 
Some of those we are working on today. Ion propulsion is an 
area that we are now relying on. We use it from the early days 
in our communications satellites, but we are now relying on it 
for space missions. The Dawn Mission that is going to the 
asteroid belt is entirely dependent on ion propulsion, and that 
is a very efficient propulsion that is being developed with 
industry but at principally the Glenn Research Center and Jet 
Propulsion Laboratory. And it has now been adapted by some 
universities to go off and do missions.
    So those are just a couple of examples, but you are exactly 
right. We can go further in each of those areas to go off and 
find newer technologies and developments of technologies that 
will enable those missions. I could add life support, having 
humans live--today we have humans that can spend 6 months on 
orbit at a time, but they are close to earth. If things really 
get bad for whatever reason, they can come home. When we start 
sending humans beyond, certainly beyond low-Earth orbit but 
even beyond the moon, we need to have systems that will keep 
humans alive and be reliable for hundreds of days to years. And 
those are technologies that we are all looking at and can do 
more in.
    Ms. Fudge. Thank you. My last question, NASA's in-house 
research and technology expertise has been instrumental in both 
assuring advancement of critical technologies and supporting 
their demonstration and utilization in NASA missions. These 
capabilities at NASA centers are essential for effectively 
managing NASA's technology portfolio.
    It is also needed for developing and effectively leading 
partnerships with industry and universities. What is and can be 
done further to ensure that these in-house civil service 
capability is maintained and strengthened, particularly in 
light of reduced center civil service complement over the past 
several years and an aging workforce with a high percentage of 
retirement-eligible personnel?
    Mr. Scolese. Well, certainly having exciting programs, be 
they technology or missions, is something that is critical. We 
believe we have the legislative authorities and the contracting 
tools to allow us to partner appropriately with industry and 
some examples you have again on your desk of areas in 
aeronautics where we have some very strong relationships with 
companies and other organizations. On those we can generally 
speak only in terms of the general benefit because those 
companies want to maintain their competitive advantage.
    In the space arena it is a little more obvious because 
there aren't as many organizations that are involved there. But 
I think we have some good partnerships there. I think if--
further if you look at our Innovative Partnership Program, what 
we call IPP, where we do a lot of work with the small business 
community, we have a lot of examples where we have gone off and 
actually transitioned the technology to other areas.
    One example is an endoscope that is used in heart surgery 
now is a spin-off of a NASA activity that we went off and 
worked ultimately with a small business. So those are just some 
examples of some areas that we can do.
    Ms. Fudge. Thank you, Mr. Chairman.
    Mr. Griffith. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. This is for anyone on 
the panel here. What is the situation where we are doing 
research, the Federal Government is paying for this research, 
and who ends up with the patents for new discoveries?

                                Patents

    Mr. Scolese. Well, unfortunately, the answer is it depends. 
The--for things where there is clearly--the government is the 
lead on it, the government owns the patent on that or the--and 
of course, the credit for the patent goes to the individual 
that developed the technology. And depending on the agreements 
that are made, if it is done in conjunction with a university 
or if it is in conjunction with an industry, whoever those 
agreements are worked to and where the majority of the activity 
comes determines who the patent owner will ultimately be.

                          Benefit to Taxpayer

    Mr. Rohrabacher. Do you think that the taxpayers are being 
well served and represented in those negotiations as to who 
owns--if we finance research, I mean, the taxpayers finance 
research. Should we not demand that we have the financial 
benefit, meaning the patent benefit from financing the 
research?
    Mr. Scolese. Well, yes, sir, and that is what I was trying 
to get at. In some of our cases where we have agreements it is 
only for them to use our test facilities, not to go off where 
we are putting in resources, and they may reimburse us for 
those test facilities.
    So that is why I was getting at. It depends if the 
government funds it, we own the patent. There is no question 
about that.
    Mr. Rohrabacher. Okay. Good. That is what I needed to know.
    Mr. Scolese. Yeah.
    Mr. Rohrabacher. It seems to me that would be a source of 
revenue that we could utilize when we talk about expanding the 
budget for people. Maybe we could make sure that we are 
receiving the benefits from that research.
    Is there any research being done on the space elevator 
concept?

                             Space Elevator

    Mr. Scolese. I would have to answer that one for the 
record, sir. I don't know at this time. I know that there is a 
prize--or not a prize. There is a technology activity that 
would allow that to be proposed to, but I do not know what was 
proposed this year.
    Mr. Rohrabacher. Okay. Are we--I would imagine we just had 
a launch and a hit on the moon to find out if there is ice that 
is--we could utilize. Do we have research going on to find out 
if there is ice on the moon, how we can use that ice to further 
the space program?

                             Finding Water

    Mr. Scolese. Well, yes, sir, we do, because while we are 
not as sure about the moon, we are very sure about Mars. We 
have touched ice on Mars, and we know there is a lot of water 
there. So we do have activities that are related to what we 
call in-situ resource utilization, where we can take advantage 
of the resources that are available to us and then go off and 
use them. And in the case of water in particular, if we have 
fuel cells, we separate the water into hydrogen and oxygen and 
then ultimately combine it to use it either as a rocket fuel or 
to use it as a fuel to generate electricity.

                             Beaming Energy

    Mr. Rohrabacher. Right. The--is there much being done on 
beaming energy, or is that something that we did 10 years ago 
or 15 years ago and not doing it anymore?
    Mr. Scolese. We actually have an experiment that we are 
looking at for doing on the space station to do that. I don't 
know what the current manifest is, but low-power beaming to get 
some idea of what we can do there and what the practical 
limitations are. So it has not gone away. It is--
    Mr. Rohrabacher. Good.
    Mr. Scolese. --still with us.
    Mr. Rohrabacher. It would seem to me that that is one thing 
that people just--I have talked about this about 10 years ago I 
remember, and it just seemed to me to have a lot of potential 
but a lot of--most other people don't think it has much 
potential, but if we can beam energy, can we--that could 
actually enable us to put heavier objects into space because we 
don't have to carry its own, their own fuel.
    Mr. Scolese. Yes, sir.
    Mr. Rohrabacher. The--let me see. Got to mention something 
about children and dinosaurs and space. I have--my wife and I 
were blessed with triplets 5-1/2 years ago, one boy and two 
girls. I just wanted to reconfirm that they are excited about 
dinosaurs and space. So with that said thank you very much.
    Mr. Griffith. Congressman, thank you. Congressman Miller. 
Edwards. Excuse me.
    Ms. Edwards. Donna Edwards from Maryland. Thank you for 
your testimony. I actually wanted to follow up on a couple of 
things.
    One is I do think it is--and I appreciate your testimony 
to--as to the difficulty balancing long and near-term goals, 
and I guess there is stuff in-between and investments and 
strategies in those because although I think a lot of the 
public really thinks about NASA as sort of the one place in 
government where people really are thinking well out into the 
future, that because of budget and other kinds of pressures and 
performance pressures that we perhaps are not looking as much 
into the future as we need to be, and that means in terms of 
investment in research and advanced technologies.
    And so I wanted to actually follow up from Mr. 
Rohrabacher's question regarding intellectual property and 
intellectual property rights, because I think that, again, is a 
tough balance to strike. If you are trying to, you know, if you 
want to put out, you know, requests for really innovative 
research, then, you know, a scientist and researcher or an 
investigator wants to have some skin in the game, and part of 
that skin is potentially that, you know, great patent down the 
line.
    And so I wonder if you could comment for me about how we 
can strike that balance of intellectual property rights and 
sharing so that we get, you know, the greatest bang for the 
buck and benefit as taxpayers but also incentivize some of our 
researchers to do that cutting-edge, risk-taking investigative 
work that we know should continue into the future.
    And then I am also very interested to know on that question 
there are technologies and research going on in commercial 
spaceflight, in military space, and it seems that there are 
lots of walls and barriers in terms of sharing that innovative, 
intellectual property that is developed in each one of these 
spheres that I think gets in the way. You know, for example, if 
a technology is developed on the military space side, then we 
have, you know, some competitors around the world who are 
actually using some of those technologies and sharing them and 
commercializing them, but right here in this country those same 
technologies can't be shared on our civilian and commercial 
side. And that is a real downer when it comes to making 
investments in research.
    And so I wonder if you can give me some thoughts about that 
and what we might think about in the Congress to try to 
mitigate that.

           Sharing Between Military and Commercial Developers

    Mr. Scolese. Certainly. If I can take the last question 
first, the barriers for us to work with the--with our 
colleagues in other agencies in the government are not so 
great. We typically can do that quite well, and oftentimes when 
you are doing a research or a technology activity, it is not 
always known in the agencies which ones are there. So we have 
to have much stronger dialogues and that is something that I 
think we are all working on much more diligently now than we 
have in the past.
    But even in the past we had, for instance, a technology, I 
forget the exact name because it keeps on changing, but a 
technology working group where our NASA chief engineer and 
before that our chief technologist would work with their DARPA 
colleagues and other colleagues from the Department of Defense 
or Department of Energy to go off and find areas of common 
interest.

                                  ITAR

    Further on that second part, the area where we really find 
that we hurt ourselves and we could really use help is with the 
ITAR, the International Traffic in and Arms Regulations, 
because that really limits our ability to take U.S. developed 
capabilities and bring those overseas where it could bring 
benefit to our companies. And even in the government, it is 
very difficult in government-to-government interactions for us 
to take technologies that we have and make them available so 
that it is a U.S.-developed technology and a U.S.-managed 
technology.
    Instead, we develop it, someone sees it, and they will go 
off and invest their resources to go off and make the profit.
    Ms. Edwards. I have an example of that right in my 
district.
    Mr. Scolese. I am sure you do.
    Ms. Edwards. And that is why I asked.
    Mr. Scolese. Yes. Well, we both kind of worked at the same 
place at one point, so I figured that was probably the answer. 
On the earlier question about the intellectual property rights, 
it would probably be better if I took that one for the record 
and gave you all of the types of contracts that we have. Some 
have greater liberties for the inventor to go off and have 
property rights for those even if the government is funding it.
    But it depends a lot on what that agreement says. So we 
have space act agreements and contracts and grants, and they 
are all a little bit different. So why don't I take for the 
record to get you a summary of what those are and what the 
intellectual property rights are associated with those various 
ones.
    Ms. Edwards. I would appreciate that. Thank you.
    Mr. Scolese. Okay.
    Mr. Griffith. The Chair is going to ask a few questions or 
make a few comments really. I think most of my questions have 
been answered.
    This visual aid that was produced is absolutely impressive. 
I would say that you could also put a hospital room with a bed 
and a patient on this very page, and there would probably be 
greater than 18 improvements that have happened because of 
NASA, from the early diagnosis of breast cancer because of the 
innovations in the Hubble Telescope, to the miniaturizations of 
instruments that you have mentioned, to many, many things that 
have happened over the last 2 decades as a direct result of the 
innovations at NASA that we did not know were going to occur.
    And that is one of the great benefits of research and 
development, one of the great benefits of science is that 
science has to prepare to discover, and then after it 
discovers, it discovers further what it did not know was there. 
I think Einstein said that research is something he does when 
he doesn't know what he is doing, and so I think we need to 
really emphasize the fact that research and development, 
whether it is the discovery of the Van Allen radiation fields, 
whether it is our continuing effort to improve materials so 
that we can further discover whether it be the neutron 
scattering and the elastic properties of radiation in material 
is absolutely critical to the advancement of science.
    And NASA has been at the forefront of that, and I might 
take just one liberty to say that I think it is the absolute 
soul of America, both in its intellectual capabilities and 
equity and also in America's future, and I appreciate each and 
every one of you being here and coming from the Alabama Fifth 
District and Marshall Space Flight Center, you can see that I 
am a little bit prejudiced.
    But I think Ranking Member Olson has another question.
    Mr. Olson. Thank you, Mr. Chairman. One more question for 
Dr. Colladay, and Dr. Colladay, you used to run NASA's Office 
of Aeronautics and Space Technology. NASA separated those 
research fields a few years ago with aeronautics placed in its 
own mission directorate and space technology placed into the 
exploration systems mission directorate.
    Was that a good idea, or should the two be reunited into a 
single office? And as a follow up, would reuniting them 
strengthen technology developed by NASA, or is money the issue, 
not organization? And finally, would reuniting them suffice 
rather than creating a DARPA-like organization? I know it is a 
lot.

                     NASA Organizational Structure

    Mr. Colladay. Well, there were good and valid reasons for 
having the two combined when you get to the far-term, long-term 
base research, because when you are working computational fluid 
dynamics and advanced materials and the basic navigation and 
controls and sort of the basic disciplinary research and it is 
a long way from application, the people doing the research 
didn't always know they were spending an aeronautics R&D dollar 
or a space technology dollar. They were working on important 
and exciting engineering and science problems.
    And so there was--there were certain number of advantages 
of having them together. They had to be defended separately. It 
gave enough critical mass that that person at the table that 
was--that I had spoke of as the champion defending advanced R&D 
had a big enough portfolio to be at the table.
    But that is not the only way to do it. It--there are a lot 
of different governance models. Whatever governance model you 
look at, certain things have to be attended to, and I mention 
it in my remarks. One is when it is separate organizationally 
and put together as it was 20 years ago, aeronautics and space 
technology, you really have to put a lot of effort into making 
sure that what is being done is relevant.
    You get criticism that, oh, they are just off playing in 
the sandbox. That is unfair a lot of times, but it points to 
the need and the organization that is responsible for advanced 
technology to make sure they are working with the user 
community, they are working with the ultimate developers to 
make sure that what they are working on has a transition path, 
it is relevant, and then a management approach or a governance 
model is in place to manage the transition of these great 
things that come out of the research that have to later be 
developed.
    One thing in being a director of DARPA that I learned, it 
is, you know, we quit doing the research when we had proof of 
concept. If we proved that something was feasible, that was 
enough. We were off doing something else. A lot of work, a lot 
of hard work and money goes into taking those ideas and putting 
them to practice.
    And so it is not enough to develop the technology, prove 
feasibility, create this environment where it is all right to 
take risks. You do all those things, and that is important, but 
there is--the ultimate user and the developer has to run with 
the early technology development along and parallel to manage 
the transition.
    I don't know that on my watch in NASA that we always did a 
good enough job on those two points; relevancy, making sure 
that the ultimate user was involved, and that we managed the 
transition from what was code R into application. And the 
application sometimes wasn't with NASA at all. It was with 
industry.
    Mr. Olson. Thank you very much for that answer, Dr. 
Colladay. I see I have run out of my time. I yield back my 
time. Mr. Chairman.
    Mr. Griffith. Thank you, Ranking Member Olson. I am 
reminded before we close that the concept for high-speed CT 
Scanning was available to us 30 and 40 years ago. The 
coefficient of absorption and expansion I can remember working 
out problems with my slide rule and taking me a great deal of 
time, and it depended on our development outside of the concept 
of high-speed computing that allowed us to develop the CT Scan 
or even though we had the concept proven many, many decades 
before, so I think as pure R&D, pure science begins to develop. 
We serendipitously discover things over here that apply over 
here, and we can't always predict that.
    Before we bring the hearing to a close, I want to thank 
each and every one of you for being here, and thank the 
witnesses and also our participants.
    The record will remain open for 2 weeks for additional 
statements from the members and for answers to any follow-up 
questions the subcommittee may ask of the witnesses. The 
witnesses are excused, and the hearing is now adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Robert D. Braun, Co-Chair of the Committee To Review 
        the Nasa Institute for Advanced Concepts, Aeronautics and Space 
        Engineering Board, National Research Council

Questions submitted by Chairwoman Gabrielle Giffords

Disclosure: Since the October 22 hearing, I have had significant 
interaction with NASA personnel on this subject. However, the responses 
provided here to your questions reflect the deliberations of the 
National Academy Committee to Review the NASA Institute for Advanced 
Concepts and my own individual thoughts. I have indicated my personal 
views as such in the following responses.

Q1.  In your prepared statement, you indicate that your panel felt that 
the former NIAC's complete focus on revolutionary concepts was too long 
term. As a result, your committee recommended that the new NIAC2 
program should adopt a standard of ``technically innovative'' rather 
than ``revolutionary'', as was formerly used. By changing the standard 
to no longer stress revolutionary capabilities, would NASA run the risk 
of missing out on game-changing technologies?

A1. By definition, visionary advanced concepts will not be near-term. 
However, in our committee discussions, it was felt that NIAC's complete 
focus on revolutionary concepts (as directed in its NASA SOW) was too 
long-term, creating a cultural mismatch between the NIAC products and 
its mission-focused sponsors and causing infusion difficulties for the 
MIAC innovators. As such, the committee recommended that the key 
selection requirement for NIAC2 proposal opportunities be that the 
concept is scientifically and/or technically innovative and has the 
potential to provide major benefit to a future NASA mission of 10 years 
and beyond. While 10 years and beyond includes concepts that could be 
40 years or farther in the future and revolutionary concepts are 
certainly scientifically and/or technically innovative, the committee 
felt that these modifications in focus would likely result in NIAC2 
efforts with a higher probability of infusion into NASA's strategic 
planning process. In the committee's opinion, these changes would not 
constrain NASA from receiving and selecting revolutionary concepts (and 
their associated game-changing technologies) through future NIAC2 
solicitations. Rather, such a change would also allow consideration of 
more near-term concepts, still a decade or more away from fruition, 
that have a higher likelihood of infusion into future NASA missions. 
The NIAC2 selection process would have to be designed to provide the 
appropriate balance between advanced concepts one decade or multiple 
decades into the future.
    In addition, while NIAC's efforts were (and NIAC2's efforts should 
remain) on advanced concepts, other elements of a broadly focused NASA 
technology development program could specifically target proving the 
feasibility of game-changing technologies. Such demonstrations are 
likely to cost significantly more than a NIAC2 Phase I or Phase II 
concept study and require additional schedule. The proper suite of 
game-changing technology investments should result from integration of 
advanced systems analysis work (e.g., NIAC2 studies) overlaid upon a 
detailed set of technology roadmapping activities, developed by the 
knowledgeable technical community (both NASA and external 
technologists).

Q2.  In your view, what would be an appropriate suite of NASA 
investments to address near-term, mid-term, and long-term technology 
needs?

A2. In my experience, there are three general classes of technology 
development programs: mission-focused (near-term), discipline-based 
(long-term), and capability-based (mid-range). NASA presently refers to 
these classes as mission-focused, early-stage and game-changing 
innovation, and crosscutting capabilities, respectively. While mid-
term, capability-based technology investments are perhaps the most 
critical for a forward-looking Agency like NASA, within NASA today, 
this type of technology investment is minimal. In my view, this is not 
acceptable for an agency whose purpose includes demonstrating this 
nation's scientific and technological prowess, or one that is trying to 
inspire the next generation of engineers and scientists. It is from 
these capability-based technology developments (crosscutting 
capabilities) that NASA's next generation of missions will sprout. 
Today, a technology-poor NASA greatly hampers our aeronautics and space 
flight development programs. The lack of a crosscutting capability 
technology maturation program is perhaps the greatest deficiency in 
NASA's current approach to technology development.
    I believe that NASA would be well served through a blend of 
technology development activities including the mission-focused 
technology presently performed in the NASA mission directorates (2-5 
year maturation timeframe, moderate $ investment), capability-based 
technology (5-15 year maturation timeframe, large $ investment), and 
discipline-based technology (15-40 year maturation timeframe, modest $ 
investment). On top of the mission-focused technologies currently being 
pursued within the NASA mission directorates, a broadly-focused NASA 
technology development program should include a large number of small $ 
value ``seed-fund'' awards for long-term visionary concepts and early 
stage innovation, a smaller number of moderate $ value awards to mature 
a competitively selected set of game-changing technologies, and a few 
high $ value awards to mature selected crosscutting technologies to 
flight readiness status. I believe our nation would be well served by 
investing at least 10% of NASA's budget in support of the technologies 
required to dramatically advance entirely new aeronautics and space 
endeavors (in contrast to an investment of less than 3% today). This 
investment would include a small amount for advanced concepts so 
difficult to achieve that their chance of individual success within a 
decade is less than 10%, yet concepts so innovative that their success 
could serve as game-changers for this vital, national industry.

Q3.  Your report indicates that the committee considered the model of 
each NASA Directorate having its own NIAC-like entity.

        a.  What are the pros and cons of having such ``sub-NIAC'' 
        units within each mission directorate?

        b.  Why did your panel ultimately reject that model?

A3. The committee determined that two aspects that led to NIAC's 
termination were that (1) its focus was on far-term mission concepts 
that were not closely aligned with the lunar exploration architecture, 
and that (2) NIAC had limited success in infusing advanced concepts 
into NASA's strategic plans. Recognizing this relevance problem, the 
committee considered whether or not each NASA directorate should have 
its own NIAC-like entity. One potential advantage of such an 
arrangement is that each ``sub-NIAC'' could focus specifically on the 
advanced system and mission needs of its associated directorate, which 
likely would help each such organization to be more relevant to the 
directorate and would facilitate the infusion of results obtained. 
However, there are several disadvantages to such an arrangement, 
including (1) the management challenge of multiple mission directorate 
independent solicitations, (2) the need for proposers to be able to 
place their advanced concept within a specific mission directorate 
(whereas, many of the advanced concepts pursued by NIAC were at the 
intersection of multiple mission directorates), and (3) the integration 
of these mission-directorate advanced concepts with an eventual 
crosscutting capabilities demonstration program. In such a scenario, 
each mission directorate may also need to carry the funds and 
development programs to mature selected advanced concepts to flight 
readiness. As such, in the opinion of the committee, the efficiencies 
resulting from having a single organization solicit and manage advanced 
concepts for NASA as a whole were significantly compelling.

Q4.  You said in your prepared statement that the lack of a NASA 
interface to receive the hand-off of promising projects was a 
persistent MIAC challenge. Consequently, your panel recommended 
improvement in how advanced concepts are infused into future systems.

        a.  Can you elaborate on what reestablishing an aeronautics and 
        space systems technology development enterprise would entail 
        from an organizational, programmatic, and cultural perspective?

        b.  What would the relationship between the proposed NIAC2 and 
        this new enterprise?

        c.  If the enterprise is not established, could you still have 
        a NIAC2 entity? Where would it reside organizationally?

A4. In the committee's opinion, the lack of a NASA interface to receive 
the hand-off of promising projects was a persistent NIAC challenge. To 
improve the manner in which advanced concepts are infused into its 
future systems and to build a culture that continuously strives to 
advance technology, the committee recommended that NASA consider 
reestablishing an aeronautics and space systems technology development 
enterprise. Such an organization would serve to preserve and increase 
the leadership role of the United States in aeronautical and space 
systems technology. Successfully reestablishing such an enterprise 
would have significant organizational, programmatic and cultural 
ramifications for NASA. As such, NASA's considerations for such an 
enterprise should include implications for the agency's strategic plan, 
effective organizational approaches, resource distributions, field 
center foci, and mission selection process. There are multiple 
organizational models that NASA could choose to employ. To allow for 
successful, sustained implementation of a broadly focused NASA 
technology development program, such an enterprise should report to the 
Office of the Administrator, be outside the existing mission 
directorates, and be chartered to address NASA-wide mission and 
technology needs.
    In my opinion, the cultural challenges facing such an enterprise, 
within NASA, are significant, as NASA has not been organized for the 
objective of technology development and innovation its development for 
some time. The reestablishment of creativity and innovation across the 
existing NASA workforce, and in the Agency's hiring practices, must be 
championed by this organization. Strong interactions with the academic 
community, national laboratories and industry research and development 
centers must be reestablished. Most importantly, this new NASA 
enterprise must be given permission to occasionally fail. A program 
focused on game-changing technology innovation should not be expected 
to succeed in each investment. However, on the whole, and over time, 
dramatic advances in aerospace technology that enable entirely new NASA 
missions and potentially, solutions to a wide variety of our society's 
grand technological challenges should be both expected and measured. 
Programmatically, this new enterprise must invest broadly across a wide 
range of innovations, across near-term, mid-range and long-term 
technology and advanced concepts efforts. This new enterprise must 
engage the top science and engineering talent in our nation, teaming 
NASA, industry and academic organizations, in coordination with other 
government agencies, independent of the workforce constraints at the 
NASA Centers. For long-term success, the budget stability of this 
enterprise must be assured.
    If a broadly focused aeronautics and space systems technology 
development enterprise were farmed within NASA, the committee 
recommends that NIAC2 be an active element of its program, providing a 
broad range of advanced concept studies from both NASA and external 
innovators. The committee further believes that establishment of a 
NIAC2 activity is required whether or not a broadly focused aeronautics 
and space systems technology development enterprise is formed at NASA. 
If this new technology and innovation enterprise were not formed, the 
committee recommends that NIAC2 should report directly to the Office of 
the Administrator, be outside mission directorates, and be chartered to 
address NASA-wide mission and technology needs. However, the committee 
would like to point out that without establishment of a broadly focused 
aeronautics and space systems technology development enterprise, NIAC2 
infusion objectives will likely continue to be a challenge.

Q5.  Your panel's report stated that DARPA was the most frequently 
referenced model of success for advanced concept development.

        a.  What other models did your panel discuss?

        b.  In your opinion, in establishing a follow-on entity such as 
        NIAC2, is it more important for NASA to have the right 
        structure or the right priority?

A5. The committee spent a significant amount of time investigating and 
discussing DARPA and its model for advanced concept development and 
technology maturation. We also investigated and discussed previous and 
current NASA approaches including NASA's former Office of Aerospace 
Technology and former Office of Aeronautics and Space Technology, NASA 
roadmapping, Decadal Survey process and Vision mission studies 
conducted within or for the NASA Science Mission Directorate, and the 
Exploration Technology Development Program within the NASA Exploration 
Systems Mission Directorate. NASA Langley's Aerospace Systems Concepts 
and Analysis organization was discussed as were related approaches to 
concept development at the Jet Propulsion Laboratory and NASA Goddard 
Space Flight Center. Long-term research and innovation models at AFOSR, 
ARPA-E and NSF were also discussed as were advanced concept development 
approaches utilized by universities and industry.
    In my opinion, in establishing a NIAC2, it is most important for 
NASA to give this advanced concepts organization sufficient priority, 
Agency-level visibility, freedom to establish the right technical 
content, and a stable funding level. The right program structure is an 
important asset for efficiency, but is not an absolute necessity.

Q6.  Your panel's report indicates that potential awardees are 
concerned about investigator retention of rights data and associated 
intellectual property. How might NASA address their concern while 
ensuring the agency's investment is also protected?

A6. The committee heard from some MAC awardees, particularly small 
businesses that were uncomfortable with what they understood to be 
their rights to intellectual property developed under a NIAC award. 
While not uniform in these expressions, some NIAC awardees expressed 
uncertainties about the status of intellectual property for proposals 
submitted to NIAC and the status of intellectual property rights for 
work developed under NIAC support. As such, the committee recommended 
that NIAC2 develop and document a policy allowing awardees rights to 
data and associated intellectual property to address these issues 
before soliciting any proposals. As an organization with a focus on the 
development of new concepts and technologies, NIAC was and NIAC2 would 
be in an ideal position to foster an innovative program of intellectual 
property management and train its innovators in how to manage 
intellectual property and their rights in compliance with the law and 
government policy. The committee also recommended that NASA, through 
NIAC2, allow awardees to retain rights to data and associated 
intellectual property developed under NIAC2 awards. The committee 
believes that in these matters the financial risk to the government is 
small, while the potential commercial benefit to our nation is large.
                   Answers to Post-Hearing Questions
Responses by Dr. Raymond S. Colladay, Vice Chair of the Committee on 
        Rationale and Goals of the U.S. Civil Space Program, 
        Aeronautics and Space Engineering Board, National Research 
        Council

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  Your committee's report states that ``Space activities provide 
economic opportunities, stimulate innovation and support services that 
prove the quality of life. US. economic competitiveness is directly 
affected by our ability to perform in this sector and the many sectors 
enabled and supported by space activities. ``The report also says that 
``The United States is now living on the innovation funded in the 
past''.

Q1a.  Is your report suggesting that NASA is no longer in a position of 
enabling significant technological innovation?

A1,1a. Nothing that a commitment to fund advanced technology research 
and development would not solve. NASA has the people with the skills 
and a clear charter in the Space Act to conduct technology research and 
development that can lead to the kind of innovation envisioned in the 
report. It takes a commitment to invest the resources to sustain such 
research over the long haul--something that has been missing lately.

Q1b.  In today's environment where near term challenges command our 
attention and resources, how do we convince the rest of the Congress 
that the ``seed corn'' of technology development is a critical top 
priority?

A1,1b. The best rationale for investment in technology research and 
development is based on making the case for the importance of 
maintaining our technological competitiveness. NASA's mission and US 
prestige that comes with the space program rests on technological 
excellence--excellence which cannot be sustained without up-front 
investment in technology. Unfortunately, the case is easier to make 
now, because the consequences of not making the necessary investments 
are evident today in cost overruns; less capable missions, fewer good 
technical options to meet requirements, and a lack of true game-
changing opportunities.

Q2.  Your report discusses the broad customer base that would benefit 
from the multi-use technologies including NASA, NOAA, industry, and 
military space programs. Some multi-use technologies might be of more 
interest and pertinence to certain users.

Q2a.  How would the selection process ensure balance among the users?

A2,2a. If NASA is truly conducting and sponsoring technology research 
and development at the cutting edge boundaries of science and 
engineering for space applications, balance among ultimate users of the 
resulting technology is best addressed later in the process during 
transition to application. DOD and/or industry will adapt whatever 
technological breakthroughs appear to be in their best interests and 
they should pay for it when it reaches that stage. NASA can be a 
catalyst for innovation by investing in very advanced concepts where 
balance is based on competition of the best ideas from the most 
talented people with the greatest potential pay-off.

Q2b.  How would a DARPA-like entity balance technologies that address 
long-term user needs and in supporting highly visionary technology 
concepts for which uses are not yet known or defined?

A2,2b. If a DARPA-like entity is created to address technology research 
and development, then its mission should be weighted primarily towards 
the highly visionary technology concepts. That is the part of the R&D 
spectrum that is most in need of emphasis in NASA right now.

Q2c.  Who should provide the funding for such multi-use technology 
efforts?

A2,2c. NASA should. It is explicit in their charter and the ultimate 
user is, as you say, not yet defined. It will always require orders-of-
magnitude more money to transition products of technology research and 
development to application, which is when others (e.g. DOD or industry) 
should expect to carry the funding load.

Q3.  Your report notes that one of the goals of the civil space program 
should be ``To provide technological, economic, and societal benefits 
that contribute to the nation's most pressing problems.''

Q3a.  How would the DARPA-like entity discussed in your report address 
broader, national needs?

A3,3a. NASA should stay closely bound to their space and aeronautics 
mission. It is a very stressing mission that pushes the boundaries of 
engineering disciplines that benefit broader national needs when 
considering potential applications beyond aviation and space: As such, 
space and aeronautics is an engine for technological innovation, but 
the ultimate application of the technology may be in fields far from 
aerospace. DARPA has been most effective when it stays focused on its 
military mission, but the technology breakthroughs it has enabled have 
led to advances far beyond just the military. Clearly, however, NASA 
should partner and collaborate with their research counterparts in DOD, 
industry, and other government agencies and departments in a culture of 
cooperation in technology R&D.

Q3b.  How would technology areas be prioritized, especially if the goal 
of the DARPA-like organization is to ``support preeminent civil, 
national security. . ., and commercial space programs'' as your 
committee recommends?

A3,3b. Priorities should be established through a competition of 
ideas--the best research, by the best people, with the best ideas. 
There will always be limited funding, so the competition should be 
intense.

Q4.  DARPA is often characterized as having a risk -taking culture, one 
that conducts long-term, high-risk, high payoff research, is tolerant 
of failure, and is open to learning. Is it realistic to expect such 
risk taking to succeed in NASA in light of fiscal constraints that 
emphasize near term mission success?

A4. You raise one the strongest arguments in my opinion to separate an 
organization within NASA to undertake this very advanced, game-changing 
technology research and development. As a whole, NASA must and should 
be risk averse, particularly with human space flight. Mission success 
is paramount in human space flight and also in many of the grand space 
science mission. if the charter for innovative technology research and 
development is dispersed throughout the agency in all the mission 
areas, it can be very confusing to the culture and the workforce to say 
safety and mission success is paramount and at the same time parse the 
message that there needs to be a high tolerance for risk and failure is 
acceptable if reaching for an aggressive goal. it seems to me that the 
leadership can encourage a DARPA-like organization with NASA to take 
that high-risk path if it is understood that rest of the organization, 
particularly human space flight, stays focused on safety and mission 
success where failure cannot be an option. Advanced technology research 
and development is precisely where risk should be taken and in so 
doing, the risk is wrung out before the technology is applied to an 
operational mission.

Q5.  You note in your prepared statement that DARPA-like organization 
adapted for NASA should be ``relieved of NASA institutional 
requirements''. Could you elaborate on what requirements you would 
target?

A5. If technology R&D is to promote a competition of the best ideas by 
the best people wherever they reside--NASA Centers, universities, other 
government labs, or industry--then resources should not be preferred to 
the particular NASA Centers in need of institutional support such as 
building a centers core competency. It may happen that it accomplishes 
exactly that, but it should be because the people or the ideas from 
that center are best in class.

Q6.  Regarding your panel's recommendation that NASA revitalize its 
advanced technology development program by establishing a DARPA-like 
organization within NASA, can you clarify what would happen to the 
advanced aeronautics research currently conducted in ARMD under your 
approach?

A6. There are many organizational models and most have been tried in 
one form or another. Aeronautics could be part of it, like it once was, 
and there are arguments both for and against. Either way, aeronautics 
in NASA is a vitally important mission area and needs to be supported 
either as part of a DARPA-like organization whose charter is broadly 
``aerospace'', or separate.

                                   

</pre></body></html>
